No. 19IN THE

Supreme Court of the United States
___________

CHARGEPOINT, INC.,
v.
SEMACONNECT, INC.,
___________

Petitioner,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
___________

PETITION APPENDIX
___________

CARTER G. PHILLIPS*
RYAN C. MORRIS
LUCAS W.E. CROSLOW
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Petitioner
October 21, 2019

* Counsel of Record

TABLE OF CONTENTS
APPENDIX A: Opinion, ChargePoint, Inc. v.
SemaConnect, Inc., No. 2018-1739 (Fed. Cir.
Mar. 28, 2019) ....................................................

Page

1a

APPENDIX B: Mem. & Order: Mot. to Dismiss,
ChargePoint, Inc. v. SemaConnect, Inc., No.
MJG-17-3717 (D. Md. Mar. 23, 2018) ............... 31a
APPENDIX C: Judgment, ChargePoint, Inc. v.
SemaConnect, Inc., No. 2018-1739 (Fed. Cir.
Mar. 28, 2019) .................................................... 87a
APPENDIX D: Order, ChargePoint, Inc. v.
SemaConnect, Inc., No. 2018-1739 (Fed. Cir.
July 23, 2019) (per curiam) ............................... 88a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
FEDERAL CIRCUIT
————
2018-1739
————
CHARGEPOINT, INC.,
Plaintiff-Appellant,
v.
SEMACONNECT, INC.,
Defendant-Appellee.
————
Decided: March 28, 2019
————
OPINION
Prost, Chief Judge.
Appellant ChargePoint, Inc. appeals the decision of
the U.S. District Court for the District of Maryland,
which dismissed ChargePoint’s complaint under Federal
Rule of Civil Procedure 12(b)(6). The district court held
that the eight patent claims asserted by ChargePoint
were ineligible for patenting under 35 U.S.C. § 101.
We affirm.
The technology at issue in this patent infringement
case pertains to charging stations for electric vehicles.
The battery in an electric vehicle is recharged by connecting the vehicle to an electrical outlet. U.S. Patent
No. 8,138,715 col. 1 ll. 20–24 (“the ’715 patent”). At the
time the patent application was filed, this process “typi-

2a
cally require[d] hours and [was] often done overnight
or while the electric vehicle [was] parked for a significant time.” Id. col. 1 ll. 24–26.
Businesses such as restaurants, apartments, and
shopping centers have installed electric vehicle charging stations for the convenience of their customers.
These site hosts manage their charging stations in
different ways. For example, a shopping center may
prefer to offer free vehicle charging to its customers to
encourage customers to continue shopping. Meanwhile,
an apartment complex might limit access to its charging stations to ensure that only tenants can use those
stations.
Utility companies have different concerns in mind.
Generally, the supply of electricity available from a
power grid may vary, and in some cases the grid may
lack sufficient electricity to meet demand. Id. col. 1 ll.
39–41. During such periods when power supply is low
compared to demand, supply to certain customers or
services may be reduced based on a preplanned load
prioritization scheme. Id. col. 1 ll. 44–47. The idea of
reducing electricity consumption during periods of
high demand is one form of what is referred to as
“demand response.” Id. col. 1 ll. 43–44. Demand response
may also involve increasing demand during periods
when demand is low compared to supply, by reducing
the cost of electricity. Id. col. 1 ll. 47–50.
In addition to pulling electricity from a local electricity grid, electric vehicles may also supply electricity
to the grid. Id. col. 1 ll. 58–61. This is referred to
as vehicle-to-grid transfer or V2G. Id. Vehicle-to-grid
transfer can be helpful during periods of high demand.
Id. col. 1 ll. 64–66.

3a
ChargePoint contends that its inventors created
improved charging stations that address the various
needs inherent in electric vehicle charging. This was
accomplished by creating networked charging stations.
According to ChargePoint, this network connectivity
allows the stations to be managed from a central
location, allows drivers to locate charging stations in
advance, and allows all users to interact intelligently
with the electricity grid.
ChargePoint alleged in its complaint that it was “the
first company to propose networked [electric vehicle]
charging infrastructure, in the face of widespread
industry skepticism, and the first to patent networked
[electric vehicle] charging technology.” J.A. 83 ¶ 6. It
further alleged that the asserted patents “describe a
paradigm-shifting concept of how to charge electric
vehicles in a dynamic, networked environment—a
dramatic departure from the gas station-centric ideas
that prevailed before ChargePoint’s innovations.” J.A.
84 ¶ 9.
According to ChargePoint, its inventions enabled
individual charging stations to be networked together
to allow site hosts, drivers, and utility companies to
communicate in real time to address the needs and
preferences of each constituency. For example, the
patents describe the ability to locate available charging stations remotely. See, e.g., ’715 patent col. 4 ll. 59–
65. The patents also explain that the availability of
electricity may be based on power grid data provided
by a utility company. See, e.g., id. col. 4 ll. 45–58. And
the patents suggest that drivers can choose to transfer
power from their vehicles to the power grid during
periods of high demand. Id. col. 4 ll. 54–58. These
capabilities are described in the four patents at issue
in this appeal.

4a
A
There are four patents at issue in this case: U.S.
Patent Nos. 8,138,715; 8,432,131 (“the ’131 patent”);
8,450,967 (“the ’967 patent”); and 7,956,570 (“the ’570
patent”). The patents share the same specification.
These patents generally describe electric vehicle
charging stations that are connected to a network. The
stations are connected to the local power grid, and
electric vehicles connect to the stations by way of an
electrical connector. ’715 patent col. 5 ll. 38–42.
ChargePoint asserted claims 1 and 2 of the ’715
patent in this case. J.A. 98–99 ¶¶ 49–50 (Compl.).
These claims recite an apparatus that is controlled by
a remote server, where the server controls whether
electricity is flowing. Claim 2 adds a component that
physically connects the charging station to an electric
vehicle and that can activate or deactivate charging at
the connection.
As for the ’131 patent, ChargePoint asserted claims
1 and 8. J.A. 101–02 ¶¶ 60–61 (Compl.). Claim 1 specifies that the apparatus can modify electricity flow
based on demand response communications received
from the server.
With respect to the ’967 patent, ChargePoint asserted
claims 1 and 2. J.A. 104, 107 ¶¶ 71–72 (Compl.). These
claims are method claims related to using the networkcontrolled charging stations. They also incorporate the
idea of demand response.
Finally, regarding the ’570 patent, ChargePoint
asserted claims 31 and 32. J.A. 91, 96 ¶¶ 38–39
(Compl.). These claims describe a network-controlled
charging station system.

5a
B
ChargePoint sued SemaConnect for patent infringement in December 2017. Soon after, ChargePoint filed
a motion for emergency injunctive relief. The district
court denied injunctive relief and ordered expedited
briefing on SemaConnect’s Rule 12(b)(6) motion based
on § 101. The court granted SemaConnect’s motion to
dismiss under Rule 12(b)(6) with prejudice, holding
each asserted claim ineligible for patenting under
§ 101. ChargePoint, Inc. v. SemaConnect, Inc., No.
17-3717, 2018 WL 1471685 (D. Md. Mar. 23, 2018).
The district court entered final judgment in favor of
SemaConnect on March 23, 2018. ChargePoint timely
appealed. We have jurisdiction under 28 U.S.C.
§ 1295(a)(1).
II
We review a district court’s grant of a Rule 12(b)(6)
motion under the law of the regional circuit. Aatrix
Software, Inc. v. Green Shades Software, Inc., 882 F.3d
1121, 1124 (Fed. Cir. 2018). Applying Fourth Circuit
law, we review a district court’s dismissal under
Rule 12(b)(6) de novo, we assume the truth of the
complaint’s factual allegations, and we draw all reasonable inferences in favor of the plaintiff. Semenova v.
Md. Transit Admin., 845 F.3d 564, 567 (4th Cir. 2017)
(citing Belmora LLC v. Bayer Consumer Care AG, 819
F.3d 697, 702 (4th Cir. 2016)).1

1

In its “Standard of Review” section of its brief, ChargePoint
cites Fourth Circuit case law suggesting that motions under Rule
12(b)(6) generally cannot reach the merits of affirmative defenses
unless all facts necessary to that defense clearly appear on
the face of the complaint. Appellant’s Br. 22. To the extent
ChargePoint intended to make a procedural argument related to

6a
Subject matter eligibility under § 101 may be determined at the Rule 12(b)(6) stage of a case. Aatrix
Software, 882 F.3d at 1125. Dismissal at this early
stage, however, is appropriate “only when there are no
factual allegations that, taken as true, prevent resolving the eligibility question as a matter of law.” Id.
Section 101 of the Patent Act delineates the subject
matter eligible for patent protection. Under that section,
“[w]hoever invents or discovers any new and useful
process, machine, manufacture, or composition of matter,
or any new and useful improvement thereof, may obtain
a patent therefor, subject to the conditions and requirements of this title.” 35 U.S.C. § 101. This provision,
however, contains longstanding judicial exceptions,
which provide that laws of nature, natural phenomena, and abstract ideas are not eligible for patenting.
Alice Corp. v. CLS Bank Int’l, 573 U.S. 208, 216, 134
S.Ct. 2347, 189 L.Ed.2d 296 (2014).
In analyzing whether the claims are patent eligible,
we employ the two-step analysis articulated in Mayo
Collaborative Services v. Prometheus Laboratories, Inc.,
566 U.S. 66, 132 S.Ct. 1289, 182 L.Ed.2d 321 (2012),
and further delineated in Alice. “First, we determine
whether the claims at issue are directed to one of those
patent-ineligible concepts.” Alice, 573 U.S. at 217, 134
S.Ct. 2347. If the claims are directed to a patent ineligible concept, we begin the “search for an ‘inventive
concept’—i.e., an element or combination of elements
that is ‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.’” Id. at 217–18, 134 S.Ct.

this case law, we hold that argument forfeited, as it is not
addressed elsewhere in ChargePoint’s briefing.

7a
2347 (internal quotation marks omitted) (quoting
Mayo, 566 U.S. at 72–73, 132 S.Ct. 1289).
A
At step one of the Mayo/Alice inquiry, “[w]e must
first determine whether the claims at issue are
directed to a patent-ineligible concept.” Id. at 218, 134
S.Ct. 2347. We recognize that “[a]t some level, ‘all
inventions . . . embody, use, reflect, rest upon, or apply
laws of nature, natural phenomena, or abstract ideas.’”
Id. at 217, 134 S.Ct. 2347 (quoting Mayo, 566 U.S. at
71, 132 S.Ct. 1289). Thus, at step one, “it is not enough
to merely identify a patent-ineligible concept underlying the claim; we must determine whether that
patent-ineligible concept is what the claim is ‘directed
to.’” Thales Visionix Inc. v. United States, 850 F.3d
1343, 1349 (Fed. Cir. 2017) (quoting Rapid Litig.
Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d 1042, 1050
(Fed. Cir. 2016)). We have described this step one
inquiry “as looking at the ‘focus’ of the claims.” Elec.
Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353
(Fed. Cir. 2016 (quoting Enfish, LLC v. Microsoft
Corp., 822 F.3d 1327, 1335–36 (Fed. Cir. 2016))). In
this first step, we consider the claims “in their entirety
to ascertain whether their character as a whole is
directed to excluded subject matter.” Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1346
(Fed. Cir. 2015).
Our cases have crafted various tools to analyze
whether a claim is “directed to” ineligible subject
matter. For example, we have found the specification
helpful in illuminating what a claim is “directed to.”
See In re TLI Commc’ns LLC Patent Litig., 823 F.3d
607, 611–12 (Fed. Cir. 2016); Ariosa Diagnostics, Inc.
v. Sequenom, Inc., 788 F.3d 1371, 1376 (Fed. Cir.
2015); see also Parker v. Flook, 437 U.S. 584, 586, 98

8a
S.Ct. 2522, 57 L.Ed.2d 451 (1978) (noting that the
patent application provided nothing more than a formula for computing an alarm limit); cf. United States
v. Adams, 383 U.S. 39, 49, 86 S.Ct. 708, 15 L.Ed.2d 572
(1966) (“[I]t is fundamental that claims are to be
construed in the light of the specifications and both are
to be read with a view to ascertaining the invention.”).
But while the specification may help illuminate the
true focus of a claim, when analyzing patent eligibility,
reliance on the specification must always yield to the
claim language in identifying that focus. This is because
“the concern that drives” the judicial exceptions to
patentability is “one of preemption,” Alice, 573 U.S. at
216, 134 S.Ct. 2347, and the claim language defines
the breadth of each claim, see Graver Tank & Mfg. Co.
v. Linde Air Prods. Co., 336 U.S. 271, 277, 69 S.Ct. 535,
93 L.Ed. 672 (1949) (“[I]t is the claim which measures
the grant to the patentee.”). Thus, as part of our
“directed to” analysis, we also consider whether a claim
is truly focused on an abstract idea (or other ineligible
matter), whose use the patent law does not authorize
anyone to preempt. See Mayo, 566 U.S. at 72, 132 S.Ct.
1289; see also Alice, 573 U.S. at 223, 134 S.Ct. 2347
(noting “the preemption concern that undergirds our
§ 101 jurisprudence”); Ariosa Diagnostics, 788 F.3d at
1379 (“The Supreme Court has made clear that the
principle of preemption is the basis for the judicial
exceptions to patentability.”).
With these tools in mind, we turn to the claims at
issue in this case. We address each claim separately,
as the parties have not designated a representative
claim.
1
Claims 1 and 2 of the ’715 patent are both apparatus
claims. They recite:

9a
1. An apparatus, comprising:
a control device to turn electric supply on and off
to enable and disable charge transfer for electric
vehicles;
a transceiver to communicate requests for charge
transfer with a remote server and receive communications from the remote server via a data control
unit that is connected to the remote server through
a wide area network; and
a controller, coupled with the control device and
the transceiver, to cause the control device to turn
the electric supply on based on communication
from the remote server.
2. The apparatus of claim 1, further comprising
an electrical coupler to make a connection with an
electric vehicle, wherein the control device is to
turn electric supply on and off by switching the
electric coupler on and off.
’715 patent claims 1–2.
It is clear from the language of claim 1 that the claim
involves an abstract idea—namely, the abstract idea
of communicating requests to a remote server and
receiving communications from that server, i.e., communication over a network. But at step one, “it is not
enough to merely identify a patent-ineligible concept
underlying the claim; we must determine whether that
patent-ineligible concept is what the claim is ‘directed
to.’” Thales Visionix, 850 F.3d at 1349 (emphasis
added) (quoting Rapid Litig. Mgmt., 827 F.3d at 1050).
We therefore continue our analysis to determine
whether the focus of claim 1, as a whole, is the abstract
idea. As explained below, we conclude that it is.

10a
While “[t]he § 101 inquiry must focus on the language of the Asserted Claims themselves,” Synopsys,
Inc. v. Mentor Graphics Corp., 839 F.3d 1138, 1149
(Fed. Cir. 2016), the specification may nonetheless be
useful in illuminating whether the claims are “directed
to” the identified abstract idea. See In re TLI Commc’ns,
823 F.3d at 611–12; Ariosa Diagnostics, 788 F.3d at
1376. For example, in some cases the “directed to”
inquiry may require claim construction, which will
often involve consideration of the specification. See
Phillips v. AWH Corp., 415 F.3d 1303, 1315 (Fed. Cir.
2005) (en banc) (“[C]laims ‘must be read in view of the
specification, of which they are a part.’” (quoting
Markman v. Westview Instruments, Inc., 52 F.3d 967,
979 (Fed. Cir. 1995))).
The “directed to” inquiry may also involve looking
to the specification to understand “the problem facing
the inventor” and, ultimately, what the patent describes
as the invention. See In re TLI Commc’ns, 823 F.3d at
612; Ariosa Diagnostics, 788 F.3d at 1376 (in the step
one analysis, pointing to statements from the specification that supported the conclusion that the natural
phenomenon claimed was the key discovery described
in the patent). For example, in In re TLI Communications we held ineligible a claim to a method for recording
and administering digital images using a phone. 823
F.3d at 610. In our step one analysis, we explained
that “the problem facing the inventor was not how to
combine a camera with a cellular telephone, how to
transmit images via a cellular network, or even how to
append classification information to that data.” Id. at
612. Instead, quoting the specification, we explained
that “the inventor sought to ‘provid[e] for recording,
administration and archiving of digital images simply,
fast and in such way that the information therefore
may be easily tracked.’” Id.; see id. at 611 (noting that

11a
“the specification’s emphasis” that the present invention relates to methods for recording, communicating,
and administering a digital image “underscores that
[the claim] is directed to an abstract concept”). We also
pointed to the specification to explain why the tangible
components recited in the method claim were merely
“conduit[s] for the abstract idea.” Id. at 612. We reached
that conclusion in part because the specification “fail[ed]
to provide any technical details for the tangible components, but instead predominately describe[d] the system
and methods in purely functional terms.” Id.; see id. at
612–13 (concluding that “the focus of the patentee and
of the claims was not on” improved hardware because
the specification described the functionality of the
hardware “in vague terms without any meaningful
limitations”).
In this case, ChargePoint has not expressed a need
for claim construction, so we need not look to the
specification for that purpose. We do, however, view
the specification as useful in understanding “the problem facing the inventor” as well as what the patent
describes as the invention. Here, the specification
suggests that claim 1 is directed to the abstract idea
of communication over a network to interact with a
device connected to the network. The problem identified by the patentee, as stated in the specification, was
the lack of a communication network that would allow
drivers, businesses, and utility companies to interact
efficiently with the charging stations. For example,
the specification states that “[t]here is a need for a
communication network which facilitates finding the
recharging facility, controlling the facility, and paying
for the electricity consumed.” ’715 patent col. 1 ll. 35–
38. Likewise, it states that “[t]here is a need for an
efficient communication network for managing peak
load leveling using Demand Response and V2G.” Id.

12a
col. 2 ll. 8–10. Looking to future needs, the specification anticipates that “there will be a need for a system
for collection of taxes and consumption information.”
Id. col. 2 ll. 18–20. From these statements, it is clear
that the problem perceived by the patentee was a lack
of a communication network for these charging stations,
which limited the ability to efficiently operate them
from a business perspective.
The specification also makes clear—by what it
states and what it does not—that the invention of the
’715 patent is the idea of network-controlled charging
stations.2 The summary of the invention states: “A
system for network-controlled charging of electric
vehicles and the network-controlled electrical outlets
used in this system are described herein.” Id. col. 3 ll.
37–39. The specification then goes on to describe a
networked system in which, among other things,
drivers can determine whether a charging station is
available, drivers can pay to charge their vehicles, and
utility companies can supply information to charging
stations from a demand response system.3 Notably,
2

At step one, we look to what the specification describes as the
invention only to help understand the focus of the claims. We are
not analyzing, for example, whether the claimed invention is
actually novel. See Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709,
715 (Fed. Cir. 2014) (“[A]ny novelty in implementation of the idea
is a factor to be considered only in the second step of the Alice
analysis.”).
3

Although not every type of communication that we have
discussed as being in the specification (such as communications
based on demand response) is mentioned in claim 1, we include
these details because they directly correspond to what is expressly
included in claim 1—communication over a network. These
details further illustrate that the invention is the addition of
networking capability and the various communication possibilities it brings.

13a
however, the specification never suggests that the
charging station itself is improved from a technical
perspective, or that it would operate differently than
it otherwise could. Nor does the specification suggest
that the invention involved overcoming some sort of
technical difficulty in adding networking capability to
the charging stations.
In short, looking at the problem identified in the
patent, as well as the way the patent describes the invention, the specification suggests that the invention of
the patent is nothing more than the abstract idea of
communication over a network for interacting with a
device, applied to the context of electric vehicle charging stations. See Alice, 573 U.S. at 222, 134 S.Ct. 2347
(“[T]he prohibition against patenting abstract ideas
cannot be circumvented by attempting to limit the use
of [the idea] to a particular technological environment.”
(alteration in original) (quoting Bilski v. Kappos, 561
U.S. 593, 610–11, 130 S.Ct. 3218, 177 L.Ed.2d 792
(2010))). Although this is not necessarily dispositive of
the “directed to” inquiry, it strongly suggests that the
abstract idea identified in claim 1 may indeed be the
focus of that claim.
With these indications from the specification in
mind, we return to the claim language itself to consider the extent to which the claim would preempt
building blocks of science and technology. See Intellectual Ventures I LLC v. Capital One Bank (USA), 792
F.3d 1363, 1369 (Fed. Cir. 2015) (“At step one of the
Alice framework, it is often useful to determine the
breadth of the claims in order to determine whether
the claims extend to cover a ‘fundamental . . . practice
long prevalent in our system. . . .’” (quoting Alice,

14a
573 U.S. at 219, 134 S.Ct. 2347)).4 We agree with
SemaConnect that, based on the claim language, claim
1 would preempt the use of any networked charging
stations. See Appellee’s Br. 47–48. ChargePoint’s arguments to the contrary are unconvincing, as ChargePoint
merely states that the claim “recites specific, narrowing limitations arranged in a particular manner.”
Reply Br. 21. We are unpersuaded. The breadth with
which this claim is written further indicates that the
claim is directed to the abstract idea of communication
over a network for device interaction. See Ariosa
Diagnostics, 788 F.3d at 1379 (“[P]reemption may
signal patent ineligible subject matter. . . .”).
The breadth of the claim language here illustrates
why any reliance on the specification in the § 101
analysis must always yield to the claim language.
Ultimately, “[t]he § 101 inquiry must focus on the
language of the Asserted Claims themselves,” Synopsys,
839 F.3d at 1149, and the specification cannot be used
to import details from the specification if those details
are not claimed. Even a specification full of technical
details about a physical invention may nonetheless
conclude with claims that claim nothing more than the
broad law or abstract idea underlying the claims, thus
preempting all use of that law or idea. This was the
case in O’Reilly v. Morse, 56 U.S. (15 How.) 62, 14
L.Ed. 601 (1853).5 In Morse, the Court upheld claims
4

We have also considered preemption at step two of the analysis. See BASCOM Glob. Internet Servs., Inc. v. AT&T Mobility
LLC, 827 F.3d 1341, 1350 (Fed. Cir. 2016); see also Alice, 573 U.S.
at 223, 134 S.Ct. 2347 (mentioning the underlying concern of
preemption in the step two portion of the analysis).
5

Although we have referenced Morse in other contexts, such
as written description, see Univ. of Rochester v. G.D. Searle & Co.,
358 F.3d 916, 929 n.9 (Fed. Cir. 2004), Morse is also relevant to
the § 101 analysis. Indeed, the Supreme Court has discussed

15a
related to the details of Samuel Morse’s invention of
the electromagnetic telegraph, but invalidated a claim
for the use of “electromagnetism, however developed
for marking or printing intelligible characters, signs,
or letters, at any distances.” Id. at 112. The Court
expressed concern that such a broad claim would cover
any application of printing at a distance via electromagnetism regardless of whether those applications
used the invention in the patent. Id. at 113.
A similar scenario arose in Wyeth v. Stone, 30 F. Cas.
723 (C.C.D. Mass. 1840). There, the patent described
the inventor’s machine for cutting ice in great detail.
But Justice Story, riding circuit, held that one claim
effectively “claim[ed] an exclusive title to the art of
cutting ice by means of any power, other than human
power.” Id. at 727. He reasoned that “[s]uch a claim is
utterly unmaintainable” because “[i]t is a claim for
an art or principle in the abstract, and not for any
particular method or machinery, by which ice is to be
cut.” Id.
As we explained in Interval Licensing LLC v. AOL,
Inc., in Morse and Wyeth, each inventor “lost a claim
that encompassed all solutions for achieving a desired
result” because those claims “were drafted in such a
result-oriented way that they amounted to encompassing the ‘principle in the abstract’ no matter how
implemented.” 896 F.3d 1335, 1343 (Fed. Cir. 2018).
In our view, this is effectively what ChargePoint has
done in this case. Even if ChargePoint’s specification
had provided, for example, a technical explanation of
Morse in many of its § 101 opinions. Alice, 573 U.S. at 216, 134
S.Ct. 2347; Mayo, 566 U.S. at 72, 85, 132 S.Ct. 1289; Flook, 437
U.S. at 592, 98 S.Ct. 2522; Gottschalk v. Benson, 409 U.S. 63, 68,
93 S.Ct. 253, 34 L.Ed.2d 273 (1972).

16a
how to enable communication over a network for
device interaction (which, as discussed above, it did
not), the claim language here would not require those
details. Instead, the broad claim language would cover
any mechanism for implementing network communication on a charging station, thus preempting the
entire industry’s ability to use networked charging
stations. This confirms that claim 1 is indeed “directed
to” the abstract idea of communication over a network
to interact with network-attached devices.
We conclude our “directed to” analysis by addressing
ChargePoint’s argument that the claims asserted are
patent eligible because the claimed invention “build[s]
a better machine.” Appellant’s Br. 24, 29. We are not
persuaded. Claim 1 indicates that the abstract idea is
associated with a physical machine that is quite
tangible—an electric vehicle charging station. Claim 2
goes further, explaining that a vehicle may be connected
to the apparatus via an electrical coupler. But as the
Supreme Court indicated in Alice, whether a device is
“a tangible system (in § 101 terms, a ‘machine’)” is not
dispositive. See 573 U.S. at 224, 134 S.Ct. 2347; In re
TLI Commc’ns, 823 F.3d at 611 (“[N]ot every claim
that recites concrete, tangible components escapes the
reach of the abstract-idea inquiry.”). Resolving the
§ 101 inquiry based on such an argument “would make
the determination of patent eligibility ‘depend simply
on the draftsman’s art.’” Alice, 573 U.S. at 224, 134
S.Ct. 2347 (quoting Flook, 437 U.S. at 593, 98 S.Ct.
2522). As discussed above, the claim language and the
specification indicate that the focus of the claim is on
the abstract idea of network communication for device
interaction.
In short, the inventors here had the good idea to add
networking capabilities to existing charging stations

17a
to facilitate various business interactions. But that is
where they stopped, and that is all they patented. We
therefore hold that claim 1 is “directed to” an abstract
idea.
As to dependent claim 2, the additional limitation of
an “electrical coupler to make a connection with an
electric vehicle” does not alter our step one analysis.
The character of claim 2, as a whole, remains directed
to the abstract idea of communication over a network
to interact with a device, applied in the context of
charging stations.
2
Claims 1 and 8 of the ’131 patent are also apparatus
claims. They recite:
1. An apparatus, comprising:
a control device to control application of charge
transfer for an electric vehicle;
a transceiver to communicate with a remote
server via a data control unit that is connected to
the remote server through a wide area network
and receive communications from the remote
server, wherein the received communications
include communications as part of a demand
response system; and
a controller, coupled with the control device and
the transceiver, to cause the control device to
modify the application of charge transfer based on
the communications received as part of the
demand response system.
...
8. The apparatus of claim 1, wherein the
communications received as part of the demand
response system include power grid load data, and

18a
wherein the controller is further to manage
charge transfer based on the received power grid
load data.
’131 patent claims 1 and 8.
Claim 1 of the ’131 patent is almost identical to
claim 1 of the ’715 patent. The key differences are
that the apparatus in claim 1 of the ’131 patent does
not make requests for charge transfer (it only receives
them) and that the electricity supply is modified “based
on the communications received as part of the demand
response system.” ’131 patent claim 1. Because of the
similarity to claim 1 of the ’715 patent, we incorporate
our analysis of that claim and add additional comments only as necessary.
ChargePoint contends that claims 1 and 8 of the ’131
patent teach “a charging station with improved technical features that enable it to adjust the amount of
electricity delivered to cars based on demand-response
communications with utilities.” Reply Br. 5. To the
extent ChargePoint is arguing that modification itself
is an improvement, nothing in the specification explains
from a technical perspective how that modification
occurs. And the fact that the electricity flow is
modified based on demand response principles does
nothing to make this claim directed to something other
than the abstract idea. Demand response is itself an
abstract concept—a familiar business choice to alter
terms of dealing to help match supply and demand.
See ’131 patent col. 1 ll. 45–52 (“Demand Response is
a mechanism for reducing consumption of electricity
during periods of high demand. . . . Demand Response
may also be used to increase demand at times of high
electricity production. For example, the cost of electricity may be reduced during periods of low demand.”).
As we have said before, “[a]dding one abstract idea . . .

19a
to another abstract idea . . . does not render the
claim non-abstract.” RecogniCorp, LLC v. Nintendo
Co., 855 F.3d 1322, 1327 (Fed. Cir. 2017), cert. denied,
––– U.S. ––––, 138 S.Ct. 672, 199 L.Ed.2d 535 (2018).
Moreover, demand response as used in these claims
merely refers to the content of the communications
received by the charging station. We therefore conclude that claims 1 and 8 are also directed to the
abstract idea of communicating over a network.
3
Claims 1 and 2 of the ’967 patent are method claims
written from the perspective of the server that communicates with the charging stations. The claims recite:
1. A method in a server of a network-controlled
charging system for electric vehicles, the method
comprising:
receiving a request for charge transfer for an
electric vehicle at a network-controlled charge
transfer device;
determining whether to enable charge transfer;
responsive to determining to enable charge transfer,
transmitting a communication for the networkcontrolled charge transfer device that indicates to
the network-controlled charge transfer device to
enable charge transfer; and
transmitting a communication for the networkcontrolled charge transfer device to modify
application of charge transfer as part of a demand
response system.
2. The method of claim 1, wherein determining
whether to enable charge transfer includes validating a payment source for the charge transfer.
’967 patent claims 1 and 2.

20a
These claims are similar to those discussed above.
With respect to these claims, ChargePoint again focuses
its arguments on the ability to modify an electric
vehicle charging station’s operation based on a demand
response business policy. See Reply Br. 6. But, as
explained above with respect to the ’131 patent, the
patent never discusses any technical details regarding
how to modify electricity flow, and the fact that any
modifications are made in response to a demand
response policy merely adds one abstract concept to
another.
The additional limitation in claim 2 regarding
validating a payment source merely provides content
for what occurs during determination of whether to
enable charge transfer. This does nothing to alter the
character of that claim as a whole.
We thus conclude that claims 1 and 2 of the ’967
patent are directed to the abstract idea of communicating over a network.
4
Claims 31 and 32 of the ’570 patent claim “[a]
network-controlled charge transfer system for electric
vehicles.” The claims recite:
31. A network-controlled charge transfer system
for electric vehicles comprising:
a server;
a data control unit connected to a wide area
network for access to said server; and
a charge transfer device, remote from said server
and said data control unit, comprising;

21a
an electrical receptacle configured to receive an
electrical connector for recharging an electric
vehicle;
an electric power line connecting said receptacle
to a local power grid;
a control device on said electric power line, for
switching said receptacle on and off;
a current measuring device on said electric power
line, for measuring current flowing through said
receptacle;
a controller configured to operate said control
device and to monitor the output from said current measuring device;
a local area network transceiver connected to said
controller, said local area network transceiver
being configured to connect said controller to said
data control unit; and
a communication device connected to said controller, said communication device being configured
to connect said controller to a mobile wireless
communication device, for communication between
the operator of said electric vehicle and said
controller.
32. A system as in claim 31, wherein said wide
area network is the Internet.
’570 patent claims 31 and 32.
Although these claims are in a different form than
claim 1 of the ’715 patent, we again find our analysis
of that claim applicable. ChargePoint contends that
the various physical components in claims 31 and 32
show that the claims “do not recite the general concept
of remote access or control, but rather a concrete

22a
arrangement of components that enables users and
site hosts to access and control electric-vehicle charging stations.” Reply Br. 7. But the specification does
not suggest that the inventors’ discovery was the
particular arrangement of components claimed. And
although ChargePoint accuses SemaConnect of giving
“short shrift to improvements like the ‘current measuring device’ and ‘communication device’ to connect
a ‘mobile wireless communication device,’” see Reply
Br. 7, there is no indication that the invention of the
’570 patent was intended to improve those particular
components or that the inventors viewed the combination of those components as their invention. The only
improvement alleged is use of the concept of network
communication to interact with the particular devices.
This remains the focus of these two claims, thus making both directed to an abstract idea.
5
In short, while the eight claims on appeal vary in
some respects, they are all directed to the abstract idea
of communicating over a network for device interaction. Communication over a network for that purpose
has been and continues to be a “building block of the
modern economy.” See Alice, 573 U.S. at 220, 134 S.Ct.
2347 (characterizing the use of a clearing house in
Bilski as “a building block of the modern economy”).
As with the practice of intermediated settlement in
Bilski, this “is an ‘abstract idea’ beyond the scope of
§ 101,” id., and the asserted claims are directed to that
abstract idea.
B
At step two of the Alice inquiry—the search for an
inventive concept—we “consider the elements of
each claim both individually and ‘as an ordered
combination’ to determine whether the additional

23a
elements ‘transform the nature of the claim’ into a
patent-eligible application.” Id. at 217, 134 S.Ct. 2347
(quoting Mayo, 566 U.S. at 78–79, 132 S.Ct. 1289).
“[P]atentees who adequately allege their claims contain inventive concepts survive a § 101 eligibility
analysis under Rule 12(b)(6).” Aatrix Software, 882
F.3d at 1126–27.
Where a claim is directed to an abstract idea, the
claim must include “‘additional features’ to ensure
‘that the [claim] is more than a drafting effort designed
to monopolize the [abstract idea].’” Alice, 573 U.S. at
221, 134 S.Ct. 2347 (alteration in original) (quoting
Mayo, 566 U.S. at 77, 132 S.Ct. 1289). These additional features cannot simply be “‘well-understood,
routine, conventional activit[ies]’ previously known to
the industry.” Id. (alteration in original) (quoting
Mayo, 566 U.S. at 79, 132 S.Ct. 1289). Indeed, adding
novel or non-routine components is not necessarily
enough to survive a § 101 challenge. See Ultramercial,
772 F.3d at 715 (disagreeing with the patent owner’s
argument that “the addition of merely novel or nonroutine components to the claimed idea necessarily
turns an abstraction into something concrete”). Instead,
the inventive concept must be “sufficient to ensure
that the patent in practice amounts to significantly
more” than a patent on the abstract idea. See Mayo,
566 U.S. at 72–73, 132 S.Ct. 1289. In other words,
“transformation into a patent-eligible application requires
‘more than simply stat[ing] the [abstract idea] while
adding the words “apply it.”’” Alice, 573 U.S. at 221,
134 S.Ct. 2347 (quoting Mayo, 566 U.S. at 72, 132 S.Ct.
1289); see Mayo, 566 U.S. at 77, 132 S.Ct. 1289 (asking
whether the claims “add enough”).
Whether a claim “supplies an inventive concept that
renders a claim ‘significantly more’ than an abstract

24a
idea to which it is directed is a question of law” that
may include underlying factual determinations. BSG
Tech LLC v. Buyseasons, Inc., 899 F.3d 1281, 1290
(Fed. Cir. 2018). For example, within the overall step
two analysis, “whether a claim element or combination
of elements is well-understood, routine and conventional to a skilled artisan in the relevant field is a
question of fact” that “must be proven by clear and
convincing evidence.” Berkheimer v. HP Inc., 881 F.3d
1360, 1368 (Fed. Cir. 2018).
Here, ChargePoint argues that it presented sufficient factual allegations to preclude dismissal at the
Rule 12(b)(6) stage. Appellant’s Br. 56, 58–64. Specifically, ChargePoint argues that its patents represent
an unconventional solution to technological problems
in the field, and thus contain an inventive concept.
The problems in the art identified by ChargePoint
are, generally: the sparse availability of charging stations and the need for more widespread stations; the
need for a communication network that facilitates
finding an available charging station, controlling the
station, and paying for electricity; and the need for real
time communication to effectively implement demand
response and vehicle-to-grid transfer. See Appellant’s
Br. 59–61 (listing statements from the specification
discussing problems in the art).
ChargePoint contends that it solved these problems
in an unconventional way through: (a) the ability to
turn electric supply on based on communications from
a remote server; (b) a “network-controlled” charging
system; and (c) a charging station that receives communication from a remote server, including communications
made to implement a demand response policy. Appellant’s Br. 59. To support the unconventional nature
of these alleged improvements, ChargePoint relies

25a
on allegations in its complaint, which state that
ChargePoint’s patents “describe a paradigm-shifting
concept of how to charge electric vehicles in a dynamic,
networked environment,” and that ChargePoint was
“the first company to propose networked [electric vehicle]
charging infrastructure, in the face of widespread
industry skepticism, and the first to patent networked
[electric vehicle] charging technology.” Id. at 62 (citing
J.A. 83–84 ¶¶ 6, 9).
In essence, the alleged “inventive concept” that
solves problems identified in the field is that the
charging stations are network-controlled. But network
control is the abstract idea itself, and “a claimed
invention’s use of the ineligible concept to which it is
directed cannot supply the inventive concept that
renders the invention ‘significantly more’ than that
ineligible concept.” BSG Tech, 899 F.3d at 1290.
In addition to the general arguments above,
ChargePoint highlights certain aspects of each asserted
claim. We address each argument in turn. First, with
respect to claims 1 and 2 of the ’715 patent, as well
as claims 31 and 32 of the ’570 patent, ChargePoint
points to the ability to operate charging stations remotely
as solving a problem in the field. Reply Br. 27–28.
This, again, merely mirrors the abstract idea itself and
thus cannot supply an inventive concept. See BSG
Tech, 899 F.3d at 1290.
Turning to claims 1 and 8 of the ’131 patent, as well
as claims 1 and 2 of the ’967 patent, ChargePoint
contends that these claims capture technical improvements related to demand response. Reply Br. 27.
ChargePoint disputes the district court’s conclusion
that “the combination of connecting generic networking
equipment to a charging device to carry out a demand
response plan already existed and was well-under-

26a
stood, routine, and conventional.” J.A. 63. But, as the
district court pointed out, the “Background of the
Invention” section of the specification demonstrates
that demand response has been in use in other
consumer services, such as with air conditioning and
lighting, which may be reduced during periods of high
demand. See ’131 patent col. 1 ll. 41–52. Indeed,
demand response is simply a familiar business choice
of terms of dealing to help match supply and demand.
This cannot supply an inventive concept in this case.
Despite ChargePoint’s reliance on BASCOM, the
claims in this case do not improve the technology the
way the claims in BASCOM did. There, the patent
improved prior art content filtering solutions by making
them more dynamic, thus using software to improve
the performance of the computer system itself. BASCOM,
827 F.3d at 1351. Here, the claims do nothing to
improve how charging stations function; instead, the
claims merely add generic networking capabilities to
those charging stations and say “apply it.” See Alice,
573 U.S. at 223, 134 S.Ct. 2347. This is simply an
“abstract-idea-based solution implemented with generic
technical components in a conventional way.” BASCOM,
827 F.3d at 1351.
In short, we agree with SemaConnect that the only
possible inventive concept in the eight asserted claims
is the abstract idea itself. ChargePoint, of course,
disagrees with this characterization, arguing that its
patents claim “charging stations enabled to use networks, not the network connectivity itself.” Reply Br.
29. But the specification gives no indication that the
patented invention involved how to add network connectivity to these charging stations in an unconventional
way. From the claims and the specification, it is clear
that network communication is the only possible

27a
inventive concept. Because this is the abstract idea
itself, this cannot supply the inventive concept at step
two. The claims are therefore ineligible.
C
ChargePoint briefly contends that the district court
erred by refusing to consider ChargePoint’s submitted
declarations, “[d]espite its ability to do so under Rule
12(d).” Appellant’s Br. 21. In ChargePoint’s view,
these declarations would have aided the district court
in analyzing step two. But Appellant makes no argument that the district court was required to consider
such materials under these circumstances, and we see
no error in the court’s decision to decide the motion in
the form it was presented.
D
ChargePoint also contends that the district court
erred by dismissing the complaint with prejudice, thus
precluding ChargePoint from amending its complaint
to add additional factual allegations. Appellant’s Br.
64–65. As part of its argument, ChargePoint notes
that the district court did not address whether amending the complaint would be futile.
In response, SemaConnect points out that
ChargePoint never requested that its complaint be
dismissed without prejudice, nor did ChargePoint seek
leave from the district court to amend its complaint.
Appellee’s Br. 62–63. Indeed, ChargePoint did not
even suggest the possibility of amendment below. This
appeal is the first time ChargePoint has raised this
issue. See id. ChargePoint does not dispute this, but
merely states that the district court dismissed the case
with prejudice and entered judgment on the same day
it issued the § 101 decision, leaving ChargePoint

28a
without an opportunity to seek leave to amend. Reply
Br. 33.
Under Fourth Circuit law, there is no requirement
that a district court provide a plaintiff with a definitive
ruling on a Rule 12(b)(6) motion before the court dismisses a complaint with prejudice. Adbul-Mumit v.
Alexandria Hyundai, LLC, 896 F.3d 278, 291–92 (4th
Cir.) (rejecting the plaintiffs’ argument that plaintiffs
had no reason to amend their complaint until the court
provided a “definitive ruling” that would notify plaintiffs of deficiencies in their complaints), cert. denied,
––– U.S. –––, 139 S. Ct. 607, 202 L.Ed.2d 431 (2018);
id. (explaining that “[c]ategorically requiring a district
court to first provide a ‘definitive ruling’ before dismissal with prejudice impedes a district court’s inherent
power to manage its docket” and “wocourtuld be at
odds with our general rule that the nature of dismissal
is a matter for the discretion of the district court”). We
see no error in the district court’s decision to dismiss
the complaint with prejudice and enter judgment on
the same day.
ChargePoint’s concern that the district court made
no finding that amendment would be futile is also
unavailing in these circumstances. See United States
ex rel. Carson v. Manor Care, Inc., 851 F.3d 293, 305
n.6 (4th Cir. 2017). In Carson, the plaintiff included a
cursory request for amendment in its response to a
motion to dismiss, and the district court did not explicitly address that request when it granted the motion
to dismiss with prejudice. Id. The Fourth Circuit first
explained that the district court did not abuse its
discretion in denying the request because the plaintiff
“did not properly file a motion to amend under Federal
Rule of Civil Procedure 15 or submit a proposed
amended complaint.” Id. (citing Drager v. PLIVA USA,

29a
Inc., 741 F.3d 470, 474 (4th Cir. 2014), for the proposition that “[r]egardless of the merits of the desired
amendment, a district court does not abuse its discretion by declining to grant a motion that was never
properly made”). The court further explained that
while, ordinarily, a denial of leave to amend without
any accompanying rationale is an abuse of discretion
(because it is a failure to exercise discretion at all),
where the plaintiff “made no proffer to the district
court, nor to this Court, of how [its] complaint could
be amended” to survive dismissal, “any amendment
would be futile.” Id. Even more clearly than in Carson,
ChargePoint did not file a motion to amend before
the district court. Cf. Domino Sugar Corp. v. Sugar
Workers Local Union 392 of United Food & Commercial Workers Int’l Union, 10 F.3d 1064, 1068 n.1 (4th
Cir. 1993) (“[T]he [plaintiff] contends that the district
court erred by not providing the [plaintiff] leave to
amend its complaint in response to the [defendant’s]
motion to dismiss. This argument fails, however, because
the [plaintiff] never requested leave to amend.”).
Moreover, in our view, ChargePoint has not identified
any alleged facts that could be pleaded that would cure
the deficiencies in its complaint. Therefore, ChargePoint
has failed to provide any assurance that amendment
would be anything other than futile.
In its Reply, ChargePoint clarifies that it is not
asking this court to grant leave to amend or to require
the district court to do so; instead, ChargePoint states
that it seeks only an order vacating the dismissal with
prejudice so that it can file a motion to amend. Reply
Br. 32. But, at least under Fourth Circuit law, a
plaintiff should first seek this relief in the district
court. Under Fourth Circuit precedent, “[p]laintiffs
whose actions are dismissed are free to subsequently
move for leave to amend pursuant to Federal Rule of

30a
Civil Procedure 15(b) even if the dismissal is with
prejudice.” Adbul-Mumit, 896 F.3d at 293. And while
“a motion to amend filed after a judgment of dismissal
has been entered cannot be considered until the
judgment is vacated,” Calvary Christian Ctr. v. City of
Fredericksburg, 710 F.3d 536, 539 (4th Cir. 2013), a
post-judgment motion for leave to amend may be
accompanied by a motion under Rule 59(e) or Rule
60(b), see Laber v. Harvey, 438 F.3d 404, 427 (4th Cir.
2006) (en banc) (“[T]he district court may not grant the
post-judgment motion [to amend] unless the judgment
is vacated pursuant to Rule 59(e) or Fed. R. Civ. P.
60(b).”).6
In sum, applying Fourth Circuit law, we see no basis
to vacate the district court’s dismissal with prejudice
where ChargePoint never sought leave to amend prejudgment, where ChargePoint never filed a proposed
amended complaint pre-judgment, where ChargePoint
could have sought leave to amend post-judgment by
concurrently filing a motion under Rule 59(e) or 60(b),
and where ChargePoint has not put forth facts that
would be sufficient to withstand a § 101 challenge.
III
For the foregoing reasons, we affirm the district
court’s determination that claims 1 and 2 of the ’715
patent, claims 1 and 8 of the ’131 patent, claims 31 and
32 of the ’570 patent, and claims 1 and 2 of the ’967
patent are ineligible under § 101.
AFFIRMED
6

“To determine whether vacatur is warranted, however, the
court need not concern itself with either of those rules’ legal
standards. The court need only ask whether the amendment
should be granted, just as it would on a prejudgment motion to
amend pursuant to [Rule] 15(a).” Katyle v. Penn Nat’l Gaming,
Inc., 637 F.3d 462, 471 (4th Cir. 2011).

31a
APPENDIX B
UNITED STATES DISTRICT COURT,
D. MARYLAND
————
Civil Action No. MJG-17-3717
————
CHARGEPOINT, INC.,
Plaintiff,
v.
SEMACONNECT, INC.,
Defendant.
————
Signed 03/23/2018
————
MEMORANDUM AND ORDER:
MOTION TO DISMISS
Marvin J. Garbis, United States District Judge
The Court has before it Defendant’s Motion to
Dismiss for Failure to State a Claim [ECF No. 41] and
the materials submitted related thereto. The Court
has held a hearing and has had the benefit of the
arguments of counsel.
I. INTRODUCTION
Plaintiff ChargePoint, Inc. (“ChargePoint”), founded
in 2007, is a Delaware corporation with its principal
place of business in Campbell, California. Compl. ¶ 21,
ECF No. 1. ChargePoint claims itself to be the “pioneer
in the electric vehicle charging infrastructure industry,”
boasting “tens of thousands of stations that have been
used more than 16 million times” worldwide. Id. ¶ 5.

32a
ChargePoint owns United States Patent Nos. 7,956,570
(the “’570 Patent”); 8,138,715 (the “’715 Patent”);
8,432,131 (the “’131 Patent”); and 8,450,967 (the “’967
Patent”) (collectively, the “Asserted Patents”). Id. ¶ 8.
The Asserted Patents generally relate to various
methods, systems, and apparatuses for networked
electric vehicle (“EV”) charging stations.
Defendant SemaConnect, Inc. (“SemaConnect”), a
Maryland corporation based in Bowie, Maryland,
manufactures EV charging equipment. Id. ¶ 22.
ChargePoint’s Complaint [ECF No. 1] accuses
SemaConnect of offering to sell, selling, and using EV
charging devices that infringe on the Asserted
Patents. Id. ¶ 30-33.
On December 28, 2017, by the Memorandum &
Order Re: Temporary Injunction [ECF No. 39], the
Court denied ChargePoint’s attempt to obtain a
Temporary Injunction. SemaConnect subsequently filed
the present motion and has submitted its Identification
of Non-infringement Defenses [ECF No. 42], which
includes the defense that the Asserted Patents are
invalid under 35 U.S.C. § 101.
By the instant motion, Defendant SemaConnect
contends that United States Patent Nos. 7,956,570;
8,138,715; 8,432,131; and 8,450,967 are invalid
because they are not directed to patent-eligible subject
matter pursuant to 35 U.S.C. § 101. The Asserted
patents were all issued prior to the Supreme Court’s
decision in Alice Corp. v. CLS Bank Int’l, 134 S. Ct.
2347 (2014).

33a
II. BACKGROUND
A. The Alleged Invention
The four Asserted Patents share a specification and
claim priority to United States Provisional Application
No. 61/019,474 filed on January 7, 2008.
The specification describes a system of EV charging
stations that are connected to a remote server via a
network (i.e., the Internet). ’570 Patent 3:35-45. The
remote server stores a variety of information including
customer profiles, load data from the electric grid
(updated in real time), and electricity consumption
data. Id. The EV charging station and server can be
remotely accessed and controlled by a user via a cell
phone or other electronic device. Id. at 3:48-53.
The system may also contain features such as an
electric meter to measure consumption of electricity
through each charging station, a payment station
(separate from the individual charging station), or a
device to detect whether a parking spot is occupied. Id.
at 3:54-65.
The specification essentially states that the system
provides two main improvements over previouslyavailable technology: (1) a customized and convenient
user experience and (2) management of electric
flow based on electric grid load data. Id. at 3:64-5:3.
The specification purports to achieve these alleged
improvements by filling the need for an “efficient
communication network” between charging stations,
customers, and electric utility companies. Id. at 1:3035, 2:19-23.
The customized user experience allows the user to
monitor, control, and pay for charging a vehicle from a
remote device such as a cell phone. Id. at 4:16. It

34a
allows a user to “enabl[e] charge transfer” and monitor
electric consumption by communicating a request to
the server. Id. at 4:16-43. The server then sends a
command to enable (or disable) electric flow between
the vehicle and charging station, and the charging
station reports consumption data back to the server
which is relayed to the customer’s cell phone. Id.
A customer may pay for a charging session by using
payment information stored in a user profile on the
server. Id. The user profile may also include custom
payment rates for each user based on a user’s subscription status and the location of the charging station
(e.g., a resident of a community may be charged a
lower rate when using a charging station in that
community). Id. at 3:64-5:3. A user profile may also
contain charging preferences such as only charging
during periods of lower power rates, not charging
during periods of peak power grid load, or selling
power from the vehicle back to the power grid. Id. at
4:56-60. These features provide greater control and
convenience for a customer over existing technology
because a customer may remotely manage the vehicle
charging process (which takes several hours to
complete) rather than having to be present physically
at the site of the vehicle and charging station. Id.
Furthermore, management of electric grid load data
through a communication network may include the
ability to “manage peak load leveling” using “Demand
Response” and “vehicle-to-grid (V2G).” Id. at 2:1-8,
4:44-57. Demand Response is a “preplanned load prioritization scheme” provided by the utility company that
is used to “reduc[e] consumption of electricity during
periods of high demand.” Id. at 1:37-54. When the
electric grid is strained due to increased demand, the
utility company may transmit a command (over a

35a
network) to the server, “requiring a reduction in load.”
Id. at 10:50-60. The server then sends a signal (over a
network) to individual charging stations, commanding
certain charging stations to turn off. Id. at 4:44-57,
10:50-60. The server may rely on a customer’s user
profile (e.g., a customer may only want their vehicle
to be charged during periods of low power rates) or
“the requirements of the [utility company’s] Demand
Response system” when deciding which charging stations
to turn off. Id. The specification also states that the
Demand Response system and customer profile information may allow for vehicle-to-grid (“V2G”) in which
electricity stored in the vehicle is transferred back to
the electric grid during times of peak demand. Id. at
1:55-67, 9:58-60.
The specification states that the need for electric
grid load management of EV charging stations is
made possible through the communication network as
claimed in the Asserted Patents. Id. at 2:1-8.
B. Factual Background
In August 2016, Volkswagen settled the lawsuit
brought by the United States government for its wellknown vehicle emissions scandal (commonly known
as “Dieselgate”). The settlement totaled $15 billion,
of which $2 billion was appropriated to fund an EV
infrastructure in the United States. ChargePoint
formally objected to that settlement during the preliminary court-approval process stating that the $2 billion
investment would “flood a competitive market” and
“threaten[ ] the survival of the current participants in
the market, and thus the market itself.”1 Nonetheless,

1

See In re VOLKSWAGON “CLEAN DIESEL” MARKETING
SALES PRACTICES, AND PRODUCTS LIABILITY LITIGATION,

36a
the settlement was approved, and a company called
Electrify America, LLC (“Electrify America”) was formed
to manage the implementation of the plan.
A major part of Electrify America’s plan includes
funding the cost of equipment and installation for electric vehicle charging stations, which will be installed
at workplaces, garages, retail centers, and residential
locations in chosen major metropolitan areas.
Electrify America considered bids for contracts to
manufacture and install EV charging stations during
Phase I of Electrify America’s infrastructure plan.
Electrify America narrowed the list of bidders to four
companies, including SemaConnect, ChargePoint, and
two others. Ultimately, Electrify America awarded
contracts to SemaConnect and two other companies
but not ChargePoint.
ChargePoint has since filed the Complaint [ECF
No. 1], asserting that SemaConnect’s EV charging
station model infringes claims in the Asserted Patents.
ChargePoint specifically points to network control
features in SemaConnect’s advertised models that
allegedly infringe on the claims. Compl. ¶¶ 34-77. By
the instant motion, Defendant SemaConnect contends
that United States Patent Nos. 7,956,570; 8,138,715;
8,432,131; and 8,450,967 are invalid because they are
not directed to patent-eligible subject matter pursuant
to 35 U.S.C. § 101.
C. Claims at Issue
The Asserted Patents present apparatus claims
(involving charging station hardware), system claims
(involving a server, charging station, and other
3:15-md-02672––, Dkt. No. 1784 at 9-10 (Amicus Curiae Brief of
ChargePoint).

37a
components which interact with one another), and
method claims (involving a process in a server for
deciding to enable charge through a network).
In this case, ChargePoint asserts eight claims (“the
Asserted Claims”) that are addressed in regard to the
instant motion:
’570 Patent: Claims 31 and 32 (system claims);
’715 Patent: Claims 1 and 2 (apparatus claims);
’131 Patent: Claims 1 and 8 (apparatus claims); and
’967 Patent: Claims 1 and 2 (method claims).
The Court would not be required to evaluate each
claim separately if it were clear that they do not “differ
in any manner that is material to the patent-eligibility
inquiry.” Mortg. Grader, Inc. v. First Choice Loan
Servs., Inc., 811 F.3d 1314, 1324 n.6 (Fed. Cir. 2016).
However, considering that ChargePoint is the nonmoving party and has demonstrated to some degree
that the claims are different, the Court will analyze
each claim separately for patent eligibility.
III. LEGAL STANDARD
A. In General
Federal courts must dismiss a complaint that fails
to state a claim upon which relief can be granted. Fed.
R. Civ. P. 12(b)(6).
Patent eligibility under 35 U.S.C. § 101 is a question
of law and a threshold issue that can be suitable
for resolution on a motion to dismiss. Intellectual
Ventures I LLC v. Erie Indemnity Co., 850 F.3d 1315,
1319 (Fed. Cir. 2017)(citing OIP Techs., Inc. v.
Amazon.com, Inc., 788 F.3d 1359, 1362 (Fed. Cir.
2015)).

38a
When reviewing a motion to dismiss pursuant to
Fed. R. Civ. P. 12(b)(6), a plaintiff’s well-pleaded
allegations are accepted as true, and the complaint is
viewed in the light most favorable to the plaintiff. Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(citations omitted). To survive a motion to dismiss, a
plaintiff’s complaint must contain sufficient facts that,
if assumed to be true, state a claim to relief that is
plausible on its face. Id. at 570.
B. Clear and Convincing Standard
While patent eligibility under § 101 is a question of
law, the issues may include underlying questions of
fact. Mortg. Grader, 811 F.3d at 1325. In regard to a
patent that has been issued, “any fact . . . that is
pertinent to the invalidity conclusion must be proven
by clear and convincing evidence.” Berkheimer v. HP
Inc., ––– F.3d ––––, No. 2017-1437, 2018 WL 774096,
at *5 (Fed. Cir. Feb. 8, 2018)(citing Microsoft Corp. v.
i4i Ltd. P’ship, 564 U.S. 91, 95 (2011)). “Whether a
claim element or combination of elements is well-understood, routine, and conventional to a skilled artisan at
the time of the patent is a factual determination.” Id.
When the invention’s improvements, as alleged in the
specification, create a factual dispute regarding whether
they describe well-understood, routine, and conventional activities, a court “must analyze the asserted
claims and determine whether they actually capture
these improvements.” Id. at *6.
C. Available Evidence
The Court’s review of a Rule 12(b)(6) motion is
generally limited to the contents of the complaint. Zak
v. Chelsea Therapeutics Int’l, Ltd., 780 F.3d 597, 606
(4th Cir. 2015)(motion to dismiss considers the sufficiency of allegations set forth in the complaint and

39a
“documents attached or incorporated into the complaint”)
(citations omitted). Consideration of other documents
at this stage could convert the motion into one for
summary judgment, which would be premature because
the parties have not yet conducted any discovery. Id.
at 606; see also Theune v. U.S. Bank, N.A., No. MJG13-1015, 2013 WL 5934114, at *4, n.12 (D. Md. 2013).
An exception to this rule is that courts may consider
documents that are “integral to and [are] explicitly
relied on in the judgment complaint,” without converting the motion to one for summary judgment. Zak, 780
F.3d at 606-7 (quoting Phillips v. LCI Int’l Inc., 190
F.3d 609, 618 (4th Cir. 1999)).
ChargePoint has incorporated several expert
declarations into its Memorandum in Opposition to
Defendant’s Motion to Dismiss [ECF No. 43] in order
to establish the convention of the field and the
subsequent inventiveness of the claims at the time of
the filing date of the Asserted Patents. See ECF No.
43-1; 43-2; 43-3. The declarations were not relied on in
the Complaint; thus, the exception does not apply. The
Court notes the existence of the declarations but will
not herein consider the contents (or the incorporated
arguments as they apply to the eligibility analysis) as
they are not appropriate at the Rule 12(b)(6) stage.
D. Claim Construction
There is no hard-and-fast rule that claim construction is required before a court performs a § 101
analysis. Bancorp Servs., L.L.C. v. Sun Life Assur. Co.
of Canada (U.S.), 687 F.3d 1266, 1273-74 (Fed. Cir.
2012). In some cases, claim construction may be unnecessary. Content Extraction & Transmission LLC v.
Wells Fargo Bank, Ass’n, 776 F.3d 1343, 1349 (Fed.
Cir. 2014)(concluding that even adopting the plain-

40a
tiff’s proposed construction at the Rule 12(b)(6) stage
may not alter the abstract nature of the claims).
In this case, SemaConnect alleges that the claims
are directed to ineligible subject matter even when
accepting ChargePoint’s asserted plain and ordinary
meaning of all claim terms. Def.’s Mem. 17-18, ECF
No. 41-1. Thus, no terms require judicial construction
in order for the Court to resolve the instant motion.
IV. DISCUSSION
SemaConnect contends that the Complaint fails to
state a claim upon which relief can be granted because
the Asserted Claims are directed to patent-ineligible
subject matter pursuant to 35 U.S.C. § 101. SemaConnect
contends that each claim is directed to the abstract
idea of “turning a switch on and off” and that the
abstract idea does not amount to an inventive concept
because the claims recite generic processes and equipment. Def.’s Mem. 20, ECF No. 41-1.
ChargePoint contends that the claims are not
directed to an abstract idea but are, instead, directed
to a technological improvement in EV charging station
systems. Pl.’s Resp. 9-13, ECF No. 43. ChargePoint
also contends that even if the claims are directed to an
abstract idea, the abstract idea amounts to an
inventive concept because the claims recite nonconventional and non-generic arrangements of EV
charging stations. Id. at 25.
The Court shall examine herein each Asserted Claim
to determine if they are eligible for patent protection
by virtue of 35 U.S.C. § 101.
A. § 101 Subject Matter Eligibility
Section 101 of the Patent Act defines subject matter
that is eligible for patent protection. It provides:

41a
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to
the conditions and requirements of this title.
35 U.S.C. § 101. In interpreting the meaning of Section
101, the Supreme Court has held that “[l]aws of nature,
natural phenomena, and abstract ideas are not patentable.” Alice, 134 S. Ct. at 2355 (citations omitted). The
Supreme Court reasoned that these exceptions are
“the basic tools of scientific and technological work”
and that monopolization of those tools would “preempt use of this approach in all fields” and “impede
innovation more than it would tend to promote it,
thereby thwarting the primary object of the patent
laws.” Id. (citing Ass’n for Molecular Pathology v.
Myriad Genetics, Inc., 569 U.S. 576, 589-90 (2013);
Mayo Collaborative Servs. v. Prometheus Lab., Inc.,
566 U.S. 66, 70-84 (2012)).
However, the Supreme Court warned that courts
must “tread carefully in construing this exclusionary
principle” because “[a]t some level, all inventions . . .
embody, use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas.” Id. (citing
Mayo, 566 U.S. at 71).
The Supreme Court set forth a two-step test to
determine whether an invention is patent-eligible
subject matter. A court must determine:
(1) whether the claim is directed to a patent
ineligible concept, i.e., a law of nature, a natural
phenomenon, or an abstract idea; and if so
(2) whether the elements of the claim, considered
both individually and as an ordered combination,

42a
add enough to transform the nature of the claim
into a patent-eligible application.
Intellectual Ventures I LLC v. Erie Indem. Co., 850
F.3d 1315, 1325 (Fed. Cir. 2017)(citing Alice, 132 S. Ct.
at 2355). The Federal Circuit typically refers to step
one as the “abstract idea step” and step two as the
“inventive idea step” when applying the test to claims
challenging an abstract idea exception. Id. If the
claims are found to be directed to a patent-eligible
concept (not abstract) during step one, the claims will
satisfy § 101, and the inquiry ends. Visual Memory
LLC v. NVIDIA Corp., 867 F.3d 1253, 1262 (Fed. Cir.
2017).
B. Step One: Abstract Idea Test
1. Legal Standard
Under step one of the Alice test, the court must
determine whether the claims are directed to a patentineligible concept such as an abstract idea. Alice, 134
S. Ct. at 2355. In determining whether a claim is
abstract, “claims are considered in their entirety to
ascertain whether their character as a whole is
directed to excluded subject matter.” Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1346
(Fed. Cir. 2015); see also Finjan, Inc. v. Blue Coat Sys.,
Inc., 879 F.3d 1299, 1303 (Fed. Cir. 2018)(quoting
Affinity Labs of Tex., LLC v. DIRECTV, LLC, 838 F.3d
1253, 1257 (Fed. Cir. 2016)(finding that a court must
examine the “patent’s ‘claimed advance’ to determine
whether the claims are directed to an abstract idea”)).
The Federal Circuit has cautioned against assessing
a claim’s “character as a whole” and “describing the
claims at such a high level of abstraction and untethered from the language of the claims [such that it] all
but ensures that the exceptions to § 101 swallow the

43a
rule.” Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335-37 (Fed. Cir. 2016). Nonetheless, first, a court
must identify the claimed concept’s character as a
whole. Id.
Next, a court must compare the claimed concept’s
character as a whole to claims that have been held to
be abstract. Enfish, 822 F.3d at 1334 (finding that
although the Supreme Court “has not established a
definitive rule to determine what constitutes an abstract
idea,” the Federal Circuit and Supreme Court have
outlined factors to consider and have “found it sufficient to compare claims at issue to those claims already
found to be directed to an abstract idea in previous
cases.”).
The Federal Circuit has held that in determining
whether a claim encompasses an abstract idea, “it is
often useful to determine the breadth of the claims in
order to determine whether the claims extend to cover
a fundamental . . . practice long prevalent in our
system. . . .” In re TLI Commc’ns LLC Patent
Litigation, 823 F.3d 607, 611 (Fed. Cir. 2016)(citing
Intellectual Ventures I LLC v. Capital One Bank
(USA), 792 F.3d 1363, 1369 (Fed. Cir. 2015)). The
Federal Circuit has also stated that in order to prevent
the risk of preemption of an approach to an entire
field, courts must:
look to whether the claims in the patent focus
on a specific means or method, or are instead
directed to a result or effect that itself is the
abstract idea and merely invokes generic processes
and machinery. Claims directed to generalized
steps to be performed on a computer using conventional computer activity are not patent eligible.

44a
Two-Way Media Ltd. v. Comcast Cable Communications, LLC, 874 F.3d 1329, 1337 (2017)(citing McRO,
Inc. v Bandai Namco Games America Inc., 837 F.3d
1299, 1314 (2016)); (Internet Patents, 790 F.3d at 134849). Even if the claims recite tangible components, the
physical components of the claims cannot “merely be
conduits” for the abstract idea. In re TLI, 823 F.3d at
612; see also Alice, 134 S. Ct. at 2360 (noting that not
every claim that recites concrete tangible components
escapes the reach of the abstract-idea inquiry). The
claims must focus on how a result is achieved instead
of reciting “result-based functional language.” TwoWay Media, 874 F.3d at 1337-8; see also Electric Power
Grp. LLC v. Alstom S.A., 830 F.3d 1350, 1354 (Fed.
Cir. 2016)(finding that “there is a critical difference
between patenting a particular concrete solution to a
problem and attempting to patent the abstract idea of
a solution to the problem in general”).
Furthermore, the Federal Circuit has consistently
held that gathering, analyzing, transmitting, receiving,
filtering, organizing, or displaying data, and combinations thereof, is an abstract idea without something
more. Electric Power, 830 F.3d at 1353-54 (the collection, manipulation, and display of electric power grid
data, without changing the character of the information, is abstract); Open Parking, LLC v. ParkMe,
Inc., No. 2:15-CV-976, 2016 WL 3547957, at *8 (W.D.
Pa. June 30, 2016), aff’d, 683 Fed.Appx. 932 (Mem)
(Fed. Cir. 2017)(moving data from one place to another,
such as transmitting the availability of a parking
space to a driver’s cell phone, is abstract); Content
Extraction and Transmission LLC v. Wells Fargo
Bank Nat’l Ass’n, 776 F.3d 1343, 1347 (Fed. Cir. 2014)
(collecting data, recognizing certain data, and storing
that data is abstract); Intellectual Ventures I LLC v.
Capital One Fin. Corp., 850 F.3d 1332, 1340 (Fed. Cir.

45a
2017)(collecting, displaying, and manipulating data is
abstract).
Claims directed to fundamental financial practices,
particularly validating a payment source over a network and determining a custom price for a customer
based on predetermined rules, have also been construed to be abstract. Smart Sys. Innovations, LLC v.
Chicago Transit Auth., 873 F.3d 1364, 1371 (Fed. Cir.
2017)(validating a payment source with stored account
information on a server in order to open a turnstile in
a mass transit system is abstract and non-inventive);
Versata Dev. Group v. SAP Am., Inc., 793 F.3d 1306,
1312-13 (Fed. Cir. 2015)(determining the customized
price of a product for a customer using organizational
and product group hierarchies is abstract); buySAFE,
Inc. v. Google, Inc., 765 F.3d 1354-5 (Fed. Cir. 2014)
(computer applications for guaranteeing a party’s
performance of its online transaction are abstract and
ineligible subject matter).
On the other hand, claims that are directed to a
specific improvement to the functioning of computers
or any other technology or technical field may not be
abstract. Enfish, 822 F.3d at 1335-6 (claims for a
specific database structure involved, but were not
directed to, the abstract idea of organizing information
using tabular formats and instead were directed to
improving the way a computer stores and retrieves
data); McRO, 837 F.3d at 1315 (the incorporation of
specific rules for producing accurate and realistic lip
synchronization and facial expressions in animated
characters was not abstract because it improved on the
pre-existing process and because the patent claimed
specific rules for achieving the improvement); Amdocs
(Israel) Ltd. v. Openet Telecom, Inc., 841 F.3d 1288,
1300 (Fed. Cir. 2016)(a distributed network architec-

46a
ture wherein data is collected and combined from several
sources improved upon the technical field because it
reduced network congestion while generating massive
amounts of accounting data); Thales Visionix Inc. v.
United States, 850 F.3d 1343, 1345 (Fed. Cir. 2017)
(claims reciting a unique configuration of inertial
sensors and the use of a mathematical equation for
calculating the location and orientation of an object
relative to a moving platform were directed to a
technological improvement, not an abstract idea);
Visual Memory, 867 F.3d at 1262 (a computer memory
system connectable to a processor and having programmable operational characteristics allowed interoperability
with different processors and was not directed to the
abstract idea of categorical data storage).
While the search for an improvement to technology
does overlap with the Alice step two analysis, courts
have found it sufficient to conclude that claims are
directed to an improvement in technology functioning,
as opposed to an abstract idea, in step one. Enfish, 822
F.3d at 1335-36.
In contrast, the Federal Circuit has provided
examples of claims that are not, in fact, directed to an
improvement in the functioning of technology. For
example, a court must look to the specification to
determine whether it discloses the manner in which
the alleged improvement is achieved. Affinity Labs of
Tex. v. DirecTV, LLC, 838 F.3d 1253, 1263-64 (Fed.
Cir. 2016)(finding that the claimed methods of delivering broadcast content to cellphones ineligible because
the specific process by which the improvement is
achieved was not disclosed, and claims were written
with high generality). Mere automation of a manual
process is also an abstract idea and not directed to an
improvement in technology. Credit Acceptance Corp. v.

47a
Westlake Services, 859 F.3d 1044, 1055 (Fed. Cir.
2017)(using generic technology to process a car loan
that could otherwise be done manually is abstract).
Analyzing information in a way that can be performed
mentally is also abstract. Digitech Image Techs., LLC
v. Elecs. for Imaging, Inc., 758 F.3d 1344, 1351 (Fed.
Cir. 2014). Moreover, claims are not directed to an
improvement in technology if the purported improvements arise solely from the capabilities of generic
technology and computer parts. FairWarning IP, LLC
v. Iatric Sys., 839 F.3d 1089, 1095 (Fed. Cir.
2016)(“While the claimed system and method certainly purport to accelerate the process of analyzing
audit log data, the speed increase comes from the
capabilities of a general-purpose computer, rather
than the patented method itself.”). As previously
discussed, a claim must include more than conventional implementation of generic components to qualify
as an improvement to technology. Affinity Labs, 838
F.3d at 1264-65, (Fed. Cir. 2016); In re TLI, 823 F.3d
at 612-13.
Lastly, “limiting the invention to a technological
environment does ‘not make an abstract concept any
less abstract under step one.’” Berkheimer, 2018 WL
774096, at *6 (citing Intellectual Ventures I LLC v.
Capital One Fin. Corp., 850 F.3d 1332, 1340 (Fed. Cir.
2017)).
If, after completing the Alice step one inquiry, the
claims are found to be directed to an abstract idea, the
Court must proceed to step two.

48a
2. The Asserted Claims Are Directed to
Abstract Ideas
a. The ’715 Patent (Claims 1 and 2)
Claims 1 and 2 of the ’715 Patent are:
1. An apparatus, comprising:
a control device to turn electric supply on and off
to enable and disable charge transfer for electric
vehicles;
a transceiver to communicate requests for charge
transfer with a remote server and receive communications from the remote server via a data
control unit that is connected to the remote server
through a wide area network; and
a controller, coupled with the control device and
the transceiver, to cause the control device to turn
the electric supply on based on communication
from the remote server.
2. The apparatus of claim 1, further comprising
an electrical coupler to make a connection with an
electric vehicle, wherein the control device is to
turn electric supply on and off by switching the
electric coupler on and off.
’715 Patent 12:7-22.
Claim 1 of the ’715 Patent discloses an apparatus
(charging station) that contains a “control device” (to
switch electric power on and off), a “transceiver”
(which communicates with a “remote server” over a
“wide area network” via a “data control unit”), and a
“controller” (which “causes” the control device to switch
power on or off based on a communication from the
server). Id. Claim 2 adds to the Claim 1 limitations an

49a
“electrical coupler” which connects the charging station
to the electric vehicle to enable charge transfer. Id.
i. Claim 1
Viewing the claim in its entirety to ascertain the
character as a whole, Claim 1 is directed to sending a
request, receiving a command, and executing the
command over a network to operate an EV charging
station in an expected way. This is an abstract idea.
The Court first looks to the specification to
determine what the patent purports to solve. The
specification states that “[t]here is a need for a
communication network which facilitates finding the
recharging facility, controlling the facility, and paying
for electricity consumed.” ’715 Patent 1:35-8. “There is
[also] a need for an efficient communication network
for managing peak load leveling using Demand
Response and V2G.” Id. at 2:8-10. Lastly, “[t]here is
[also] a need to effectively integrate these wide area
networks, local area networks, and short range communication devices into systems used for recharging
electric vehicles.” Id. at 3:30-34. The specification
states that “a system for network-controlled charging
of electric vehicles and the network-controlled electrical outlets used in this system are described herein.”
Id. at 3:47-48. The Complaint further alleges that “the
Asserted Patents describe a paradigm-shifting concept
of how to charge electric vehicles in a dynamic, networked environment.” Compl. ¶ 9, ECF No. 1. Thus,
the invention seeks to create user-related convenience
features and solve the problem of electric grid
stabilization by connecting individual charging stations
to a network so that they can send and receive
communications to achieve these improvements.

50a
The Court next looks to the language of what is
actually claimed. Claim 1 recites a control device, a
transceiver (communicating with a remote server
through a data control unit over a wide area network),
and a controller. ’715 Patent 12:6-18. The control
device “turns[s] electric supply on and off.” Id. at 12:8.
The transceiver “communicate[s] requests for charge
transfer with a remote server and receive[s] communications from the remote server via a data control
unit that is connected to the remote server through a
wide area network.” Id. 12:11-14 (emphasis added).
The controller “causes the control device to turn the
electric supply on based on a communication from
the remote server.” Id. at 12:15-19 (emphasis added).
Thus, the claim is directed to the process of sending a
request to a server (over a network), receiving back a
command from the server, and executing the command
(to turn electric supply on and off). This characterization of the claim is consistent with the specification’s
portrayal of the invention as a communications network.
The Court must now determine whether the character of the claim is directed to an abstract idea. Is
sending a request (over a network), receiving back a
command, and executing the command (to turn electric supply on and off) an abstract idea? The Court
concludes that it is.
Claim 1 amounts to nothing more than the recitation of generic computer and networking equipment to
achieve the result of operating an EV charging station
as it otherwise would be operated without network
connectivity. The claim recites tangible aspects such
as a transceiver, server, data control unit, wide area
network, controller, and control device. However,
these tangible components serve as nothing more than
conduits for the abstract idea of sending requests,

51a
receiving commands, and executing commands on a
device over a network.
The transceiver, data control unit, and wide area
network are nothing more than generic networking
equipment used to connect devices to a server (to
enable sending and receiving communications over a
network). A controller and control device are merely
broad recitations of generic computing components
that can “cause” something to occur. In this particular
field of use, the only thing that can be “caused” is to
turn on/off or modify electric charge.
When attempting to distinguish one of the system
claims with Claim 1 of the ’715 Patent, Counsel for
ChargePoint admitted that:
[t]he ’715 patent simply covers a data controller
connected to an electric vehicle charging station,
connecting to a control device that allows a third
party to remotely and wirelessly control the on/off
functionality of that device. . . .
Hr’g on Motion to Dismiss 41:16-20, ECF No. 48.
Counsel for ChargePoint was pressed by the Court
again in the following exchange:
The Court: So the essence of your invention is a
system where these things can be controlled
remotely and not by somebody just physically at
the charging station?
Mr. Bloch: That is fair, yes. The essence of the
system is charging stations that can be controlled
remotely and can be accessed remotely by all of
the shareholders. . . .
Id. at 43:10-16. In other words, Claim 1 of the ’715
Patent introduces network connectivity to remotely
send and receive commands to perform an existing

52a
device’s normal function, turning on and off. Thus, the
claims, although reciting tangible components, are
directed to the ability to send and receive communications to control an existing device. Reciting tangible
components will not save a claim from being abstract.
Alice, 134 S. Ct. at 2360 (noting that not every claim
that recites concrete tangible components escapes the
reach of the abstract-idea inquiry).
Furthermore, Claim 1 encompasses a “practice long
prevalent in our system.” In re TLI, 823 F.3d at 611.
Sending a request, receiving back a command, and
executing the command in an expected way is a
process that has been performed long before the
arrival of servers and networking equipment. For
example, SemaConnect explains that the exact process
in Claim 1 has been performed in a different field of
use (at a gas station) for many years. Def.’s Mem.,
28-9, ECF No. 41-1. A customer sends a request to a
station attendant to pump gas, the attendant sends
back a command to begin pumping gas (after performing some kind of verification step), and the command
to pump gas is executed (by the customer, attendant,
or computer) by activating the gas pump nozzle in an
expected way. Counsel even admitted during the
hearing that the essence of the invention is controlling
the EV charging process remotely, as opposed to
someone physically performing it at the charging
station. Hr’g on Motion to Dismiss 43:10-16.
The Court also takes preemption concerns into
consideration. As it stands, Claim 1 would preempt
any other person or company from sending a request,
receiving a command, and executing a command (to
turn electric supply on and off) over a network
(through generic networking equipment such as a
transceiver, data control unit, wide area network, and

53a
server). Enforcing such a claim would preempt competitors from developing other, more specific, methods
for managing the power grid over a network or creating customized user experiences. An example presented
by SemaConnect, for which it is being accused of
infringement, is incorporating solar and wind energy
into the charger’s operation at certain times which
would require communicating with the charger over
a network. Def.’s Mem. 26-27, ECF No. 41-1. This
approach would wholly be preempted by Claim 1
and was certainly not disclosed in the specification
as contemplated by the inventors. Claim 1 may also
preempt competitors from applying a credit card
system to EV charging stations, as that would require
communicating with a remote server (credit card
company) to verify the credit card and pin number.
SemaConnect convincingly indicates how the claims
merely limit the abstract idea to a field of use. A single
word, “vehicle,” can be replaced by any other electronic
device without changing the character of the claim:
An apparatus, comprising a control device to turn
electric supply on and off to enable and disable
charge transfer for electric [coffee-maker / dishwasher / dryer / hot water heater / vehicle]; a
transceiver to communicate requests for charge
transfer with a remote server and receive
communications from the remote server via a data
control unit that is connected to the remote server
through a wide area network; and a controller,
coupled with the control device and the transceiver, to cause the control device to turn the
electric supply on based on communication from
the remote server.
Def.’s Reply 10, ECF No. 45 (emphasis added). In
effect, the patent claim attempts to monopolize the

54a
idea of sending requests and executing commands over
a network to operate an electronic device (in this case,
an EV charging station). This is an abstract idea.
Lastly, the Court looks to whether the claim is
clearly directed to an improvement in technology as
opposed to the abstract idea of sending a request,
receiving a command, and executing the command
over a network to operate a device. The specification
states that the patent purports to solve the problem of
electric grid stabilization and to provide customizable
features to the end-user.
The specification states that a utility company may
send requests to the server to reduce load by turning
off charging stations. ’715 Patent 10:50-60. The specification also states that connecting charging stations
to a server allows the user to “find[ ] the recharging
station, control[ ] the facility, and pay[ ] for the electricity consumed” and to be charged customized prices
depending on their subscription status and location of
the charging station. Id. at 1:35-38. However, specific
solutions to these problems are completely absent
from the claims. Moreover, finding an open parking/
charging space, controlling the facility (by sending
communications over a network), verifying a payment
source over a network, and charging a custom price
based on preset rules have all been held to be categorically abstract (and patent-ineligible). Open Parking,
2016 WL 3547957, at *8; In re TLI, 823 F.3d at 612;
Smart Sys., 873 F.3d at 1371; Versata, 793 F.3d at
1312-13. Therefore, the only possible improvements to
technology that may be found in the claimed invention
are those related to the functioning of the electric grid,
not to user-related convenience features.
Claim 1 is inapposite to the holdings in Enfish,
McRo, Amdocs, Visual Memory, and Thales where the

55a
Federal Circuit held that the claims were directed to
an improvement in technology instead of an abstract
idea. Enfish involved a specific database structure
which improved the way a computer stores and
retrieves data. 822 F.3d at 1335-6. McRO involved the
incorporation of specific rules for producing accurate
and realistic lip synchronization and facial expressions in animated characters. 837 F.3d at 1315. Amdocs
involved a specific distributed network architecture
which reduced network congestion when collecting
massive amounts of data. 841 F.3d 1288, 1300. Thales
involved a specific configuration of inertial sensors and
the use of a mathematical equation for calculating the
location and orientation of an object. 850 F.3d 1343,
1345. Lastly, Visual Memory involved a specific,
improved data memory system that configured a
programmable operational characteristic of a cache
memory based on the type of processor connected to
the memory system. 867 F.3d at 1262.
Here, ChargePoint contends that the problem is
solved merely by connecting charging stations to a
network via a server, giving a user the ability to
control an individual charging station. The Federal
Circuit has consistently held that sending, receiving,
or transmitting data over a network, without something more, is an abstract idea. Elec. Power, 830 F.3d
at 1353-4; Open Parking, 683 Fed. Appx. 932 (Mem);
Content Extraction, 776 F.3d at 1347. Nothing more is
described in this claim. The claim merely recites
sending a request/command from one point to another
and “causing” that command to be executed in a
normal and expected way (turning on or off). It achieves
this through the conduit of generic networking equipment. In this context “something more” might be
present if there were specific rules for deciding how
the request was processed and transformed into a

56a
command to execute it or how the server decides to
manage demand response requests. This claim contains no such limitation and is not directed to an
improvement in the functioning of the electric grid.
This Court rejects ChargePoint’s reliance upon the
district court decisions in Chamberlain Group v.
Linear, 114 F. Supp. 3d 614 (N.D. Ill. 2015) and Canrig
Drilling Tech. Ltd. v. Trinidad Drilling L.P., Civ.
Action No. H-15-0656, 2015 WL 5458576 (S.D. Tex.
Sept 17, 2015). Neither decision is binding precedent.
Moreover, the Canrig court determined that the subject
claims were directed to overcoming challenges with
directional oil drilling through a specific apparatus
and process for controlling the rotation of the drill, as
opposed to the abstract idea of “computer-assisted
rotation.” 2015 WL 5458576 at *4. The claims in the
instant case do not describe a specific process for
overcoming a technological problem in the EV charging process, but merely recite a categorically abstract
idea of sending and receiving communications to a
device over a network through generic equipment
conduits.
This Court rejects the Chamberlain unappealed
district court decision. The Chamberlain court held
that claims involving controlling a garage door opener
over a network “have a clear concrete and tangible
form in that they are directed to monitoring and
opening and closing a movable barrier—a particular
tangible form, e.g., a garage door, gate, door, or
window.” 114 F. Supp. 3d at 626. The Chamberlain
court also held that the claims were directed to a
technological improvement because “the garage door
opener can do new things like provide for remote
monitoring and control of the garage door opener.” Id.
at 627. This Court finds that the reasoning is not

57a
convincing and was written without the benefit of
many of the Federal Circuit opinions cited herein. The
alleged technological improvement in Chamberlain
amounts to nothing more than operating an existing
device from a remote location over a network. In other
words, the Chamberlain court held that any device
connected to a network inherently possesses a technological improvement by virtue of being connected to a
network because it can send and receive communications and can be operated remotely. This Court does
not accept that position and finds that it contravenes
the purpose of the § 101 eligibility standard and wellestablished Federal Circuit and Supreme Court case
law.
Claim 1 of the ’715 Patent is simply too broad to be
directed to an improvement in an EV charging system.
Rather, it encompasses the abstract idea of sending a
request, receiving back a command, and executing a
command to operate a device in a known and expected
way. Limiting a claim to a particular field of use (EV
charging) will not save an abstract claim from being
abstract. Berkheimer, 2018 WL 774096, at *6.
ii. Claim 2
Claim 2 of the ’715 Patent adds to the limitations of
Claim 1 “an electrical coupler to make a connection
with an electric vehicle, wherein the control device is
to turn electric supply on and off by switching the
coupler on and off.” ’715 Patent 12:19-22. The Court
finds that the added limitation in Claim 2 does not
change the character of the claim as a whole. It is still
directed to the abstract idea of sending a request,
receiving a command, and executing the command in
an expected way (over a network) to turn electric
supply on and off. The electrical coupler is nothing
more than a conductor that connects the vehicle to the

58a
charging station. The existence of the electrical
coupler does not improve on the functioning of
technology in any way. In fact, it is merely a known
and necessary component of an EV charging station.
The station cannot charge a vehicle if it is not
connected. The addition of the electrical coupler helps
to clarify how the executed command reaches the
desired destination (the vehicle) in this particular field
of use (EV charging), but the character of the claim
still is directed to the communication aspect as
described in the Claim 1 analysis. Thus, Claim 2, like
Claim 1, is directed to the abstract idea of sending a
request, receiving a command, and executing the
command over a network.
b. The ’131 Patent (Claims 1 and 8)
Claims 1 and 8 are:
1. An apparatus, comprising:
a control device to control application of charge
transfer for an electric vehicle;
a transceiver to communicate with a remote
server via a data control unit that is connected to
the remote server through a wide area network
and receive communications from the remote server,
wherein the received communications include
communications as part of a demand response
system; and
a controller, coupled with the control device and
the transceiver, to cause the control device to
modify the application of charge transfer based
on the communications received as part of the
demand response system.
* * *

59a
8. The apparatus of claim 1, wherein the
communications received as part of the demand
response system include power grid load data, and
wherein the controller is further to manage
charge transfer based on the received power grid
load data.
’131 Patent 12:7-19, 50-53.
Claim 1 of the ’131 Patent discloses an apparatus
(charging station) with substantially the same core
components as those described in the ’715 Patent. One
notable difference is that instead of switching electric
supply on and off, the ’131 Patent “control device” is
more broadly said to “control[ ] application of charge
transfer.” Id. Furthermore, instead of receiving any
communications from the remote server, the ’131
Patent “transceiver” specifically receives communications related to a “demand response system.” Id.
Lastly, the ’131 Patent “controller” causes the “control
device” to “modify application of charge transfer . . .
based on the demand response system” rather than
merely switching the “control device” on or off. Id.
Claim 8 depends on claim 1 and limits the
communications from the demand response system to
“power grid load data.” Id. at 12:53.
i. Claim 1
Viewed in its entirety to ascertain the character as
a whole, Claim 1 of the ’131 Patent is directed to
receiving a command and executing the command to
operate a device over a network to modify electric
supply in an expected way. The Court finds that this
is an abstract idea.
Looking to the claim’s language, Claim 1 recites a
control device, a transceiver, and a controller, much

60a
as in the ’715 Patent. The control device “controls
application of charge transfer.” ’131 Patent 12:8-9. The
transceiver “communicate[s] with a remote server via
a data control unit that is connected to the remote
server through a wide area network and receive[s]
communications from the remote server, wherein the
received communications include communications as
part of a demand response system.” Id. at 10-15
(emphasis added). The controller “cause[s] the control
device to modify the application of charge transfer
based on the communications received as part of a
demand response system.” Id. at 16-19 (emphasis
added). Thus, the claim is directed to receiving a
command and executing the command in an expected
way, over a network, to modify application of charge
as part of a demand response system.
As distinct from the ’715 Patent, Claim 1 of the ’131
Patent does even not require sending a request, it
merely requires receiving a command and executing it.
The command is limited to communications as part of
a “demand response system.” The control device in this
claim appears to be the same control device as in the
’715 Patent, which also permits modifying application
of charge as opposed to simply switching it on and off.
Upon inspection of the specification, it appears that
the “demand response system” originates with the
utility company. ’131 Patent 4:45-58 (“the utility company’s Demand Response”); see also 10:50-60 (“load
management data from the utility company”). The
“demand response system” may include requests from
the utility company to “limit the ability to recharge,”
“[limit] the recharge rate,” or even send electricity
back from a vehicle to the power grid (i.e., V2G). Id. at
1:39-67; 10:50-60. First, the utility company “send[s] a
message” to the server, “requiring a reduction in load.”

61a
Id. at 10:50-60. A command is sent from the server to
individual charging stations to “turn off charging of
some vehicles . . . depend[ing] on subscriber profiles
and the requirements of the Demand Response system.” Id. Subscriber profile information may include
customer preferences such as whether to charge during high demand, to only charge during low power
rates, or to sell back to the power grid. Id. at 4:45-58.
Thus, the communication sent to the charging device
from the server is a command to either turn on/off
or increase/decrease charge. The decision as to which
command is sent occurs at the server level and may
be based on a demand response system of the utility
company.
While the specification purports that the ’131 Patent
improves the technological function of the electric
power grid, these improvements are not embodied in
Claim 1. The improvements, as alleged in the specification, occur when the demand response request is
sent to the server. The server then decides which
stations to turn on/off or to what extent charge should
be increased/decreased. This decision is then sent to
individual charging stations which execute the command through generic controller and control device
components. In other words, the charging station
receives a command (albeit a command that originated
as part of a demand response system before being
processed through the server) and executes the normal
and expected function of the charging station, turning
on/off or modifying charge sent to a vehicle. The decisionmaking as to which (and the extent to which) chargers
are affected in response to a utility company’s demand
response system, i.e., how the alleged improvement is
achieved, occurs in the server. These processes are not
embodied in Claim 1. Claim 1 merely refers to relaying
whatever decision is made by the server to the charg-

62a
ing station. As discussed above in the ’715 Patent
discussion, receiving a communication over a network
and executing the command in an expected way using
generic computing and networking components as
conduits for that purpose is an abstract idea. In re TLI,
823 F.3d at 612; Two-Way Media, 874 F.3d at 1337.
The ’131 Patent does not describe a specific solution to
a technological function. The improvement may be
enabled by what is claimed in Claim 1 (by virtue of
being connected to the Internet), but the specification
reveals that the improvement itself arises when the
server makes a decision when it receives a demand
response request from the utility company.
Consideration of the breadth of the claim and
preemption concerns also reveal the abstract nature of
the claim. Claim 1 effectively preempts any person or
competitor from developing a specific method for managing electric grid stabilization. Certainly, charging
stations (or any other electronic devices) would need
to communicate with the electric grid for this to occur.
As discussed above in regard to the ’715 Patent,
SemaConnect’s product sheets propose its own way of
managing the demands of the electric grid by incorporating solar and wind energy sources into its charging
stations at certain times.
Another approach might be a decision by the server
to reduce charging at residential facilities during the
day while most people (and their vehicles) are at work.
This approach would wholly be preempted if ChargePoint
were to obtain a monopoly on sending any command
(as part of a demand response system) to a charging
station and executing that command (by turning on/off
or reducing/increasing electric flow). This constitutes
an abstract idea because it “purport[s] to monopolize
every potential solution to the problem” which “impede[s]

63a
innovation more than it would tend to promote it,
thereby thwarting the primary object of the patent
laws.” Elec. Power, 830 F.3d at 1356; Alice, 134 S. Ct.
at 2355 (citations omitted).
ChargePoint alleges that the ’131 Patent invention
has enabled the improvements related to electric
power grid stabilization merely by connecting charging stations to a network via a server so that they can
send and receive communications, even when the
specification reveals something different. Sending and
receiving communications over a server and executing
the command in an expected way is an abstract idea.
ii. Claim 8
For the same reasons discussed above for Claim 1 of
the ’131 Patent, Claim 8 is also directed to the abstract
idea of receiving a command and executing the command in an expected way over a network to modify
electric supply. Claim 8 merely includes every limitation of Claim 1 but limits the “communications received
[from a server] as part of a demand response system”
to “power grid load data.” ’131 Patent 12:50-53. The
Court does not view this limitation as having an
effective difference on the character of the claim as
compared to Claim 1. In light of the specification,
demand response information or power grid load data
(if there is even a difference) is sent to the server, after
which a decision is made to turn on/off or limit charge
to individual charging stations. This decision (command)
is then communicated to charging stations over a
network. Whether the decision in the server arose
from a “demand response system” or “power grid load
data” is of no concern because that decision occurs in
the server and is not embodied in Claim 1 (or 8). What
is included in the claim is the communication of that
decision to the charging station and executing the

64a
command according to the expected and normal functioning of the charging station, which is determined to
be abstract.
c. The ’570 Patent
Claims 31 and 32 of the ’570 Patent are:
31. A network-controlled charge transfer system
for electric vehicles comprising:
a server;
a data control unit connected to a wide area
network for access to said server; and
a charge transfer device, remote from said server
and said data control unit, comprising:
an electrical receptacle configured to receive an
electrical connector for recharging an electric
vehicle;
an electric power line connecting said receptacle
to a local power grid;
a control device on said electric power line, for
switching said receptacle on and off;
a current measuring device on said electric power
line, for measuring current flowing through said
receptacle;
a controller configured to operate said control
device and to monitor the output from said current measuring device;
a local area network transceiver connected to said
controller, said local area network transceiver
being configured to connect said controller to said
data control unit; and

65a
a communication device connected to said controller, said communication device being configured
to connect said controller to a mobile wireless
communication device, for communication between
the operator of said electric vehicle and said
controller.
* * *
32. A system as in claim 31, wherein said wide
area network is the Internet.
’570 Patent 14:22-52. Claim 31 of the ’570 Patent discloses a system comprised of three main components:
a server, a data control unit (to connect a charging
station to the server via a wide area network), and a
charge transfer device (charging station). Id. The
charge transfer device comprises several of the same
core components as the ’715 and ’131 Patents including a “control device” (to switch power on and off), a
“controller” (to control the control device), and a
“transceiver” (to connect the charging station to the
data control unit which is connected to the server
via a wide area network). Id. The charging station
also includes other features such as a “communication
device” (used to connect a user’s cell phone to the
charging station via a wide area network), a “current
measuring device” (an electric meter), and an “electrical receptacle” (to connect the charging station to an
“electric power line”).
i. Claim 31
Viewed in its entirety to ascertain the character,
Claim 31 is directed to sending a request, receiving
a command, and executing the command over a
network, to turn electric supply on and off, and subsequently monitoring the results of the executed demand.
The Court finds that this is an abstract idea for many

66a
of the reasons discussed above in regard to the ’715
and ’131 Patents.
Looking to the language of the claim, Claim 31
recites a “network-controlled charge transfer device”
including a server, a data control unit, and a charge
transfer device. ’570 Patent 14:24-28. The charge
transfer device contains a transceiver, a controller, a
control device, a communication device, a current
measuring device, an electrical receptacle, and an
electric power line. Id. at 27-50. The transceiver
merely connects the charge transfer device to the
server via the data control unit. Id. at 42-45. The
control device in this claim merely switches on and off
like in the ’715 Patent. Id. at 34-35. The controller
“operates” the control device. Id. at 39-41. The communication device connects a user’s cellphone to the
charge transfer device, thus describing the origin of
the request for charge. Id. at 46-50. The electrical receptacle connects the vehicle to the charge transfer
device. Id. at 29-31. The electric power line connects
the charging device to the power grid. Id. at 32-33.
Finally, the current measuring device, “measure[s]
current flowing through said electrical receptacle.” Id.
at 36-38.
Considering the claim as a whole, the Court finds
that it is directed to a system for sending a request
(originating from a cellphone), receiving back a command (from a server), executing the command (to turn
on/off in an expected way), and monitoring the results
of the command (by measuring the electric output). As
discussed above in regard to the ’715 Patent analysis,
Counsel for ChargePoint admitted that “[t]he essence
of the system is charging stations that can be controlled remotely and can be accessed remotely by all of

67a
the shareholders.” Hr’g on Motion to Dismiss 43:10-16,
ECF No. 48.
As discussed above, sending and receiving communications over a network and executing a command in
an expected way is an abstract idea. Merely monitoring the output of the command is also abstract. Elec.
Power, 830 F.3d at 1353-54. The data collected from
the monitoring device is not used in conjunction with
the other claim components for any particular purpose
to improve the system. Rather, according to the specification, it is displayed to the customer and used to
calculate the cost of the transaction and perhaps
used for tax reports. ’570 Patent at 2:11-20; 4:37-43.
Monitoring the amount of a commodity sold and
determining a price is a long prevalent practice. The
specification does not make clear how the data collected from the monitoring device integrates into the
system, merely stating that it is ultimately reported
back to the customer on an invoice. Id. at 4:38-44.
Furthermore, the additional claim limitations unrelated to the communication system (electrical receptacle
and electric power line) merely limit the abstract idea
to a field of use (EV charging) and are peripheral
elements to a standard EV charging station. The true
character of the claim (a communication system to
send/receive/execute a command and monitor results)
is consistent with the specification in that the invention purports to fill the need for a “communication
network.” ’715 Patent 1:35-8; 2:8-10. Applying a communication network to send/receive/execute commands
is an abstract idea, and an improvement to the technological function of EV charging stations, systems, or
the electric grid is not clear in the limitations of the
claims.

68a
ii. Claim 32
Claim 32 includes every element of Claim 31 but
limits the wide area network (used by both the data
control unit and communication device) to the
Internet. The Court finds that this does not alter the
abstract character of the claim. Limiting an abstract
idea to the Internet does not save the claim from
abstraction. Using the Internet, as opposed to some
other type of wide area network, does not alter the
abstract character of the claim. The device is simply
being used as a conduit to implement the abstract idea
of sending and receiving communications over a
network to operate a device in an expected way.
d. The ’967 Patent
Claims 1 and 2 of the ’967 Patent are:
1. A method in a server of a network-controlled
charging system for electric vehicles, the method
comprising:
receiving a request for charge transfer for an
electric vehicle at a network-controlled charge
transfer device;
determining whether to enable charge transfer;
responsive to determining to enable charge
transfer, transmitting a communication for the
network-controlled charge transfer device that
indicates to the network-controlled charge transfer
device to enable charge transfer; and
transmitting a communication for the networkcontrolled charge transfer device to modify
application of charge transfer as part of a demand
response system.
* * *

69a
2. The method of claim 1, wherein determining
whether to enable charge transfer includes validating a payment source for the charge transfer.
’967 Patent, 12:6-21. Claim 1 of the ’967 Patent
discloses a method (performed in a server) comprised
of four steps: (1) receiving a request to enable charge
transfer from a charging station; (2) determining
whether to enable charge transfer, (3) transmitting a
command to the charging station to enable charge
transfer, and (4) transmitting a command to “modify
application of charge as part of a demand response
system.” Id.
i. Claim 1
Viewed in its entirety to ascertain the character
as a whole, Claim 1 of the ’967 Patent is directed to
receiving a request, processing the request, and sending a command over a network (to turn electric supply
on and off and/or modify electric charge as part of a
demand respond system). The Court finds that this is
inherently an abstract idea.
Claim 1 recites a “method in a server” comprising
receiving a request (for charge transfer from a charging
station, determining whether to enable charge transfer)
(i.e., processing the request), transmitting a communication to a charger to enable charge transfer (i.e., sending
a command), and transmitting a communication to
modify electric charge based on a demand response
system. ’967 Patent 12:6-18. Receiving, determining,
and transmitting data/communications, without something more, has repeatedly been found to be an abstract
idea. In re TLI, 823 F.3d at 612-3; Elec. Power, 830
F.3d at 1353-4. Content Extraction, 776 F.3d at 1347.
These claims are not directed to an improvement in
the functioning of technology because they do not

70a
provide any meaningful limitations. Rather, they
describe generic processes performed by a server:
receiving data, processing data, and transmitting
data. The claims limit the type of data to a field of
use (charge requests for EV charging and demand
response information) but fail to describe how the
“determining” step is performed or how the server
decides to implement a demand response request from
a utility company.
The asserted inventive step, as described in the
specification, arises in the method of “determining
charge transfer parameters” in the server. ’967 Patent
4:47-60. The specification provides only two possibilities for how the server might determine whether to
turn on/off or increase/decrease charge: (1) based on
user profile settings or (2) based on “the requirements
of the Demand Response system” with no further specification as to what this might be other than that it is
received by the utility company. ‘976 Patent 10:50-60.
The Court recognizes that the specification recites
possibilities for using profile settings as part of a
demand response system such as not charging during
high demand, only charging during low power rates,
and selling electricity back to the grid. Id. at 4:45-58.
However, these limitations simply are not recited in
the claim. While the specification can help to explain
the purpose and meaning of the claims, limitations cannot be read into the claims. Furthermore, determining
whether to alter charge “based on the requirements of
the Demand Response system [from the utility company],” instead of using user profile information, amounts
to nothing more than relaying a communication (from
the utility company) over a network to a charging
device through a server.

71a
Mere recitation of generic server processes, without
claiming any kind of specific process whatsoever, constitutes an abstract idea and would foreseeably preempt
anyone from using a server to transmit commands
related to powering on a device or implementing a plan
to improve electric grid load functionality. This type of
claim is abstract and is the very kind that Alice sought
to prevent from being monopolized.
ii. Claim 2
Claim 2 incorporates every limitation of Claim 1 but
adds a limitation that the “determining” step includes
validating a payment source. Validating a payment
source over a network has been determined to be abstract
(and non-inventive) time and time again. Smart Sys.,
873 F.3d at 1371; buySAFE, 765 F.3d at 1350.
CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d
1366, 1370 (Fed. Cir. 2011). The claim is abstract.
C. Step Two: Inventive Concept Test
Because each of the eight Asserted Claims are found
to be directed to an abstract idea, the Court must
proceed to step two to determine if the abstract idea
rises to the level of a patent-eligible inventive concept.
1. Legal Standard
The court must consider the elements of the claim,
both individually and as an ordered combination, to
assess whether the additional elements transform the
nature of the claim into a patent-eligible application of
the abstract idea. Two-Way Media, 874 F.3d. 1329,
1338 (Fed. Cir. 2017); see also Bascom Global Internet
Servs. v. AT&T Mobility LLC, 827 F.3d 1341, 1350
(Fed. Cir. 2016) (an inventive concept may be found in
the non-conventional and non-generic arrangement of

72a
components that are individually well-known and
conventional).
The Federal Circuit and Supreme Court have
identified several matters that may tend to show an
inventive concept. For example, as discussed in the
step one analysis, claims reciting a specific application
of an abstract idea that improves upon the functioning
of a computer or other technology or technical field
may embody an inventive concept. Enfish, 822 F.3d at
1335-6; McRO, 837 F.3d at 1315; Amdocs, 841 F.3d at
1300. Furthermore, claims that include elements (or
combinations of elements) that go beyond well-understood, routine, and conventional activities in the field
may also embody an inventive concept. Bascom, 827
F.3d at 1350 (the distribution of functionality within a
network, by installing internet filtering tools in servers
remote from the end-user, was inventive because that
specific network arrangement overcame problems in
the prior art such as susceptibility to hacking, dependence on local hardware/software, and one-size-fits-all
schemes); DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245, 1248 (Fed. Cir. 2014)(modifying conventional hyperlink protocol to create a hybrid webpage
that combines visual elements of a host site and a
third-party site was inventive because it overcame the
problem of host sites losing website views and sales to
the third-party).
Whether the claim elements (or combination of elements) are well-understood, routine, and conventional
in the field can present a question of fact. Aatrix Software,
Inc. v. Green Shades Software, Inc., No. 2017-1452,
2018 WL 843288, at *5 (Fed. Cir. Feb. 14, 2018). A
court may look to the specification and complaint on a
motion to dismiss to determine if there are factual
disputes regarding the convention of the field at the

73a
time of the invention. Id. While the specification may
identify improvements to functionality of technology,
which may create factual disputes regarding the convention of the field, a court “must analyze the asserted
claims and determine whether they [actually] capture
these improvements.” Berkheimer, 2018 WL 774096,
at *6; RecogniCorp, LLC v. Nintendo Co., 855 F.3d
1322, 1327 (Fed. Cir. 2017) cert. denied, 138 S. Ct. 672
(2018) (“To save a patent at step two, an inventive
concept must be evident in the claims.”); Automated
Tracking Solutions, LLC v. Coca-Cola Co., No. 20171494, 2018 WL 935455, at *5 (Fed. Cir. Feb. 16,
2018)(claims for an RFID system were broad and did
not embody any unconventional, inventive activity
as alleged in the specification and complaint). If the
claims are written with such a high level of generality
that the alleged unconventional improvements are not
captured by the claims, or if admissions are made
regarding the convention in the field, a court may
conclude that the abstract concept cited in the claims,
as a matter of law, is non-inventive (and thus patentineligible). Id. at *6-7. Furthermore, a determination
of whether a particular technology is well-understood,
routine, and conventional goes beyond a disclosed
piece of prior art that predates the effective filing date
of the invention. Id. at *6.
The Federal Circuit and Supreme Court have
held that a mere recitation of concrete or tangible
components, such as generic computer or networking
components, or adding the words “apply it with a
computer” will not convert an abstract idea into a
patent-eligible invention. Alice, 134 S. Ct. at 2360,
2368; Intellectual Ventures I LLC v. Capital One
Bank (USA), 792 F.3d 1363, 1368 (Fed. Cir. 2015) (a
“database” and a “communication medium” “are all
generic computer elements”); buySAFE, 765 F.3d at

74a
1355 (“That a computer receives and sends the information over a network—with no further specification—
is not even arguably inventive.”); In re TLI, 823 F.3d
at 613 (“[T]he components must involve more than
performance of well-understood, routine, conventional
activit[ies] previously known to the industry”); Elec.
Power, 830 F.3d at 1355 (The “[i]nquiry therefore must
turn to any requirements for how the desired result is
achieved.”).
Lastly, confining the use of the abstract idea to a
particular technological environment fails to add an
inventive concept to the claims. Affinity Labs, 838 F.3d
at 1259.
2. The Abstract Ideas in the Asserted
Claims are not Patent-eligible
a. The ’715 Patent
i. Claim 1
The Court held in the step one discussion, that
Claim 1 is directed to sending a request, receiving a
command, and executing the command over a network
to operate an EV charging station. The Court finds
nothing in Claim 1 that amounts to a patent-eligible
inventive concept.
First, the Court looks at the individual components
of the claims: a control device, a controller, a transceiver, a server, a data control unit, and a wide area
network. Each of these components amounts to generic
computing and networking equipment that were wellknown, routine, and conventional at the time of the
invention. The specification does not purport that any
of these components was anything different. Nothing
in the specification indicates that the control device,
which turns electric supply on and off, performs any-

75a
thing other than its normal and ordinary function of
turning on and off (i.e., a switch). Nothing in the
specification indicates that the controller is anything
more than a generic device (i.e., a processor) that
controls things, something that exists in all computers. See ’715 Patent 7:44 (“[the control device] is
controlled by the controller.”). In describing different
communication devices in the “Background of the
Invention” section, ChargePoint admits that transceivers already existed and tells the reader what they
are. Id. at 2:30, 35, 54, 64. (“A wireless local area
network transceiver is used for radio frequency
communication over tens of meters or more between
devices.”). The specification recites a well-understood,
routine, and conventional server with no alleged improvements. Id. at 9:4-14 (“The server comprises a computer,
report generator, and database.”). The data control
unit is nothing more than “a bridge between the LAN
and WAN, and enables communications between the
[charging station] and the server.” Id. at 6:23-25. The
specification does not state that the patent claims a
new device for bridging a LAN and WAN. This clearly
is a well-understood, routine, and conventional device.
Lastly, a wide area network assuredly has not been
invented in this patent. Id. at 2:64-3:6.
Next, the Court must determine whether ordered
combinations of these components give rise to a patenteligible inventive concept. In doing so, the only logical
grouping of these components is to separate them by
networking equipment and EV charging equipment.
The transceiver, server, data control unit, and wide
area network combine to create a system which introduces generic networking capabilities to a device. The
specification appears to assert the invention of the
concept of using a transceiver to connect to a data
control unit through a local area network that con-

76a
nects to a server through a wide area network. Id. at
3:32-35. This, in fact, would be the creation of the wide
area network itself. In describing wide area networks
in the “Background of the Invention,” the specification
states that “[t]he Internet is a worldwide, publicly
accessible plurality of interconnected computer networks. . . . Many local area networks are part of the
Internet.” Id. at 3:22-26. Thus, connecting a device (a
computer/charging station) to a local area network
device (some kind of data control unit) which communicates with a larger wide area network (the Internet)
clearly existed and was well-understood, routine, and
conventional at the time of the alleged invention.
Lastly, the networking unit must be combined with
the charging station unit (the controller and control
device) to search for an inventive concept. The Court
does not find one here.
ChargePoint alleges to have invented the concept of
introducing networking capabilities to a charging
station. The specification states that “[t]here is a need
to effectively integrate these wide area networks, local
area networks, and short range communications devices
into systems used for recharging electric vehicles.” Id.
at 3:30-33. In other words, there was a need to apply
networking capabilities to charging stations. This is
non-inventive and patent-ineligible as a matter of law.
Recitation of generic computing and networking equipment, and adding the words “apply it” to an existing
process or device in a particular field (a charging
station) so that the device may send and receive
communications is a non-inventive abstract idea.
Alice, 134 S. Ct. at 2360. Introducing networking
capabilities to operate an existing device merely serves
as a conduit to performing the abstract idea of sending
requests, receiving commands, and executing commands

77a
over a network. As noted above in the step one discussion, none of the improvements to the EV charging
system or electric grid that are effectuated by connecting the charging station to a network are presented
in this claim. Based on the lack of an improvement in
the claims, there is no factual dispute. Therefore, the
abstract nature of the claim (sending a request, receiving a command, and executing the command in an
expected way over a network) does not give rise to an
inventive concept. Thus, Claim 1 is not eligible for
patent protection.
ChargePoint seeks to rely upon the decision in
Bascom to support its argument that the abstract idea
gives rise to a patent-eligible inventive concept. In
Bascom, the patent claims described a system that
moved an Internet content-filtering process from local
servers and computers and placed them on the ISP’s
remote server. 827 F.3d at 1344-45. The specification
described that this improved the functionality of existing filtering programs because the claimed process
was less susceptible to hacking by end-users and gave
users the ability to customize filtering for users within
their individual network. Id. The Court held that the
claims were directed to the abstract idea of filtering
content over the Internet, but that that abstract idea
passed the step two test because the claims overcame
specific problems with existing systems. Id. at 1350.
ChargePoint contends that by virtue of using a
server to connect its charging stations to a network,
which allows for the possibility of creating user
accounts, that its claims are similar to the claims in
Bascom and are thus inventive. Pl.’s Resp. 28-32, ECF
no. 43. However, ChargePoint fails to appreciate the
underlying reason for the inventive concept finding in
Bascom. The Bascom court stated that the claims were

78a
inventive because moving the filtering scheme from a
local server to a remote server reduced susceptibility
to hacking and allowed administrators to create
personalized settings for users related to the Internet
filtering process. Bascom, 827 F.3d at 1350. The Court
went on to say that:
The claims do not merely recite the abstract idea
of filtering content along with the requirement to
perform it on the Internet, or to perform it on a
set of generic computer components. Such claims
would not contain an inventive concept . . . Nor do
the claims preempt all ways of filtering content on
the Internet; rather, they recite a specific, discrete
implementation of the abstract idea.
Id. The claims in the ’715 patent do not purport to have
overcome a functional issue in EV charging systems
by moving a software algorithm from a local device to
a remote server. Moreover, the user profiles herein
involve customer preferences related to business transactions (validating a payment source, receiving custom
payment rates, choosing to charge when electricity
costs are low), not the core functioning of the system
itself such as the internet filtering process in Bascom.
The claims do not even refer to a user profile or any
process for using user profile information to make a
decision to effectuate charge transfer. Instead, Claim
1 merely recites the process of sending a request to a
server and receiving back a command which is executed
in a known way. Using a server as a medium to send
and receive communications to a device, without something more, is not inventive.
ii. Claim 2
Claim 2 is not eligible for patent protection for the
same reason as Claim 1. Claim 2 merely adds the

79a
electrical coupler component to the other components
of the claims. The electrical coupler alone was wellunderstood, routine, and conventional. The specification
actually makes no mention of an “electrical coupler”
but does refer to an “electrical connector,” which connects the charging station to the electric vehicle. ’715
Patent at 7:40-41. The patent does not purport to have
invented an electrical coupler (i.e., a wire). Combining
the electrical coupler to the other components of Claim
1 also does not give rise to an inventive concept. An
electrical coupler is merely a standard component of a
charging station and narrows the claim to the field of
use. It describes how the abstract idea of sending a
request, receiving a command, and executing the command in an expected way (turning the charging station
on/off) would ultimately reach the electric vehicle.
Thus, the Court cannot find an inventive concept, and
Claim 2 is ineligible for patent protection.
b. The ’131 Patent
i. Claim 1
The Court holds that the abstract nature of Claim 1
of the ’131 Patent does not give rise to an inventive
concept and is thus ineligible for patent protection.
The Court has determined that the only difference
from the ’715 Patent is that the control device in Claim
1 of the ’131 Patent may modify charge as opposed to
simply turning on or off. The communications received
from the server are also limited to those related to a
demand response system.
The specification does not purport to have invented
a control device which is capable of modifying charge.
Thus, this limitation alone was well-known, routine,
and conventional. As the Court discussed in the step
one analysis, the communications received as part of a

80a
demand response system are merely commands to
either turn on/off or increase/decrease charge. The
demand response communication from the utility company ends at the server and is transformed into a
command which is communicated to a particular
charging station. Thus, the Court must next look to
whether the ordered combination of the networking
components and the controller/control device amount
to an inventive concept when receiving commands that
originated as part of a demand response system. For
many of the reasons discussed above in the ’715 Patent
discussion, the Court finds that it does not. The communications received as part of the demand response
system are nothing more than commands to turn
on/off or increase/decrease charge. These commands
are then executed by the controller/control unit.
ChargePoint alleges that the ability to modify
charge in response to a demand response system is the
inventive concept. However, the specification tells a
different story. In the “Background of the Invention”
section, the specification states that:
Demand Response is a mechanism for reducing
consumption of electricity during periods of high
demand. For example, consumer services such as
air conditioning and lighting may be reduced
during periods of high demands according to a
preplanned load prioritization scheme.
’131 Patent at 1:45-49.
Thus, the specification itself provides that the concept
of responding to demand response requests already
existed as applied to air conditioning and lighting. The
specification also states that the concept of vehicle-togrid (V2G) already existed but was “principally being
used in small pilot schemes.” Id. at 2:2. The specifica-

81a
tion further states that “[t]here is a need for more
widely available Demand Response and V2G to assist
with peak load leveling.” Id. at 2:3-4 (emphasis added).
In essence the concept of fluctuating charge based on
demand response already existed, but there was a
need for more of it in the EV charging field. In other
words, the specification stated that the combination of
connecting generic networking equipment to a charging
device to carry out a demand response plan already
existed and was well-understood, routine, and conventional. The need was for more of it and for “an efficient
communication network” to help implement it. Id. at
2:10-12. The alleged invention filled the need by
making networked stations more widely available and
by connecting its charging station to a network with
generic networking equipment (as established in the
’715 analysis). This does not amount to an inventive
concept. Narrowing the known concept of responding
to a demand response system to a particular field, in
this case EV charging, does not make the claims any
more inventive. Affinity Labs, 838 F.3d at 1259.
ii. Claim 8
Claim 8 is not eligible for patent protection for the
same reason as Claim 1. The only added limitation
is that the communications received as part of the
demand response system are limited to power grid
load data. As we have repeatedly established, there is
no functional difference. The commands that ultimately are sent to the charging station are commands
to turn on/off or increase/decrease charge. Whether or
not they originated as a demand response or as power
grid load data (if there is even a difference) bears no
distinction. This information is sent to the server
which decides what to do with the information and
sends out a command to the charging station. The

82a
same analysis for Claim 1 applies to Claim 8. The
Claims are not eligible for patent protection.
c. The ’570 Patent
i. Claim 31
The Court stated above in the step one analysis that
Claim 31 is directed to sending a request, receiving a
command, and executing the command over a network
to operate an EV charging station and subsequently
monitoring the results. The Court finds nothing in
Claim 31 that amounts to a patent-eligible inventive
concept.
Individually, none of the limitations amounts to
an inventive concept. Each of the components were
clearly well-understood, routine, and conventional. As
established in the ’715 analysis, a server, data control
unit, control device, controller, and transceiver were
all well-understood, routine, and conventional. The
additional “communication device” for connecting a
cellphone to the charging station is nothing more than
another transceiver. The specification does not purport to have invented a current measuring device, an
electrical receptacle, or an electric power line.
As an ordered combination, the components can be
separated into networking components and standard
charging station components. As previously established,
the networking components were clearly well-understood,
routine, and conventional. The combination of the networking equipment with the charging station equipment
also does not amount to an inventive concept. For the
same reasons as in the ’715 Patent analysis, the
ordered combination merely serves as a conduit for
carrying out the abstract idea of sending requests,
receiving commands, executing the commands in a
known way, and monitoring the results. The claims

83a
are not drawn to any of the alleged technological
improvements in the specification. Introducing the
communication device (transceiver), which connects to
a cellphone, merely describes the source of the request
to charge. The only alleged improvement that might
be captured by Claim 31 is “the need for finding the
recharging facility, controlling the facility, and paying
for the facility,” all of which are categorically abstract
and non-inventive concepts. Open Parking, 683 Fed.Appx.
932 (Mem); In re TLI, 823 F.3d at 612; Smart Sys., 873
F.3d at 1371. The added current measuring device for
monitoring electric power consumption also does not
amount to an inventive concept. Monitoring data
(electric consumption) and reporting it back to a user
with no further specification is not inventive. Elec.
Power, 830 F.3d at 1353-4.
Because Claim 31 does not capture any of the
alleged improvements, there is no factual dispute
blocking dismissal. Claim 31 merely serves as a
conduit for carrying out the abstract idea and is not
eligible for patent protection.
ii. Claim 32
Claim 32 limits the wide area network used to
connect the data control unit to the server (and the
cellphone to the charging station) to the Internet.
Certainly, the Internet was well-known, routine, and
conventional at the time of the invention, and limiting
the wide area network in Claim 31 to the Internet does
not change the analysis. ’570 Patent at 3:17-27. Claim
32 is also not eligible for patent protection.

84a
d. The ’967 Patent
i. Claim 1
The Court concluded above that Claim 1 of the ’967
Patent is directed to receiving a request, processing
the request, and sending a command over a network
(to turn electric supply on and off and/or modify electric charge as part of a demand respond system). The
Court finds that this abstract idea does not rise to the
level of patentability.
Individually, each of the claim limitations were
inherently well-understood, routine, and conventional.
The specification of the patent does assert the invention of the step of receiving a request within a server.
The specification does not purport to have invented
transmitting a command over a network through a
server. The specification does not purport to have
invented a “determining” or “processing” step within a
server.
The specification does purport to have invented the
combined method within a server of receiving a request,
determining whether to grant the request, and transmitting a command (to enable charge transfer or to
modify electric charge). This is categorically noninventive. “That a computer receives and sends [ ] information over a network—with no further specification—
is not even arguably inventive.” buySAFE, 765 F.3d at
1355. The “further specification” would be how the
server determines whether to grant the request to
charge. The determining step lies at the heart of the
inventive concept as alleged in the specification. The
determining step is the “something more” that was
missing from many of the patent-ineligible claims in
cases that were directed to sending and receiving
communications over a network. The determining step

85a
decides whether to convert the request for charge into
a command to turn on or modify charge. How this
occurs is the inventive concept which effectuates all of
the improvements alleged in the specification. When
the server receives a demand response request, the
server determines which charging stations to turn off,
modify charge, allow for V2G, etc. ’967 Patent at 10:5060. This decision-making process is what improves on
the functioning of the electric grid and EV charging
systems, as opposed to merely introducing the capability of sending and receiving communications over a
network.
However, not a single improvement or decisionmaking process is recited in Claim 1. The claim
perceivably would allow for any possible determining
step to take place without imposing any meaningful
limitations. In effect, the claim essentially recites
generic processing steps within a server: receiving a
communication, processing the communication (without
any further specification), and sending out a command. This is not even arguably inventive. Thus,
the claim does not give rise to a factual dispute, is not
an inventive concept, and is not eligible for patent
protection.
ii. Claim 2
Claim 2 limits the determining step to validating a
payment source. This has repeatedly been held to be a
non-inventive abstract idea that is not eligible for
patent protection. Smart Sys., 873 F.3d at 1371; Open
Parking, 683 Fed. Appx. 932 (Mem). Claim 2 is not
eligible for patent protection.
V. SUMMARY
The Court holds that each of the eight Asserted
Claims in the Asserted Patents is directed to an

86a
abstract idea. The Court further finds that none of the
abstract ideas, as recited in the Asserted Claims, amount
to a patent-eligible inventive concept. Connecting the
Internet to a device to send and receive communications to operate that device in an expected way,
without describing a specific process for how the
communications provide a technological improvement
(other than by virtue of being able to send and receive
communications), is an abstract idea that is not
eligible for patent protection under § 101. Therefore,
the Asserted Claims are not eligible for patent protection. Because the Asserted Claims are invalid, the
motion to dismiss shall be granted, and the Complaint
shall be dismissed.
VI. CONCLUSION
For the foregoing reasons:
1. Defendant’s Motion to Dismiss for Failure to
State a Claim [ECF No. 41] is GRANTED.
2. The following claims are found invalid under 35
U.S.C. § 101:
a. United States Patent No. 7,956,570 Claims
31 and 32;
b. United States Patent No. 8,138,715 Claims 1
and 2;
c. United States Patent No. 8,432,131 Claims 1
and 8; and
d. United States Patent No. 8,450,967 Claims 1
and 2.
3. Judgment shall be entered by separate Order.
SO ORDERED, on Friday, March 23, 2018.

87a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-1739
————
CHARGEPOINT, INC.,
Plaintiff-Appellant,
v.
SEMACONNECT, INC.,
Defendant-Appellee.
————
Appeal from the United States District Court for
the District of Maryland in No. 8:17-cv-03717-MJG,
Senior Judge Marvin J. Garbis.
————
JUDGMENT
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED
ENTERED BY ORDER OF THE COURT
March 28, 2019
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

88a
APPENDIX D
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-1739
————
CHARGEPOINT, INC.,
Plaintiff-Appellant,
v.
SEMACONNECT, INC.,
Defendant-Appellee.
————
Appeal from the United States District Court for
the District of Maryland in No. 8:17-cv-03717-MJG,
Senior Judge Marvin J. Garbis.
————
ON MOTION
————
ORDER
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
Appellant ChargePoint, Inc. filed a petition for
re-hearing en banc. A response to the petition was
invited by the court and filed by Appellee SemaConnect,
Inc. The petition was first referred as a petition for

89a
rehearing to the panel that heard the appeal, and thereafter the petition for rehearing en banc was referred to
the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 30, 2019.
July 23, 2019
Date
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

